<html>
<title> - A DANGEROUS SLIDE BACKWARDS: RUSSIA'S DETERIORATING HUMAN RIGHTS</title>
<body><pre>[Senate Hearing 113-179]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-179
 
    A DANGEROUS SLIDE BACKWARDS: RUSSIA'S DETERIORATING HUMAN RIGHTS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                AND THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PRINTING OFFICE 

86-776 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

ROBERT P. CASEY, Jr., Pennsylvania   RAND PAUL, Kentucky
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho
RICHARD J. DURBIN, Illinois          MARCO RUBIO, Florida
TIM KAINE, Virginia                  RON JOHNSON, Wisconsin

                         ------------          

                SUBCOMMITTEE ON EUROPEAN AFFAIRS        

           CHRISTOPHER MURPHY, Connecticut, Chairman        

ROBERT P. CASEY, Jr., Pennsylvania   RON JOHNSON, Wisconsin
JEANNE SHAHEEN, New Hampshire        JAMES E. RISCH, Idaho
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming

                              (ii)        


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Aron, Leon, resident scholar and director of Russian studies, 
  American Enterprise Institute, Washington, DC..................    11
    Prepared statement...........................................    12
    Articles submitted for the record:
        Washington Post--``Putin's War on Russian Civil Society 
          Continues''............................................    48
        Wall Street Journal--``The Widening Putin Clampdown''....    49
Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     1
    Submitted for the record--``Pussy Riot Collective Statement''    39
Cohen, Ariel, senior research fellow for Russian and Eurasian 
  studies and international energy policy, Heritage Foundation, 
  Washington, DC.................................................    16
    Prepared statement...........................................    17
Jannuzi, Frank, deputy executive director of advocacy, policy, 
  and research, interim coexecutive director, Amnesty 
  International, New York, NY....................................     5
    Prepared statement...........................................     7
    Submitted as attachments to prepared statement:
        Appendix: Chronicle of Rights Violations in Russia.......    39
        Additional Resources: Reports Available from Amnesty 
          Internal's International Secretariat...................    43
Johnson, Hon. Ron, U.S. Senator from Wisconsin, opening statement     3
Murphy, Hon. Christopher, U.S. Senator from Connecticut, opening 
  statement......................................................     4
Nemtsov, Hon. Boris, cochairman of Republican Party of Russia-
  People's Freedom Party, Moscow, Russia.........................    22
    Prepared statement...........................................    24
Paul, Hon. Rand, U.S. Senator from Kentucky, opening statement...     5
Sestanovich, Hon. Stephen, senior fellow for Russian and Eurasian 
  affairs, Council on Foreign Relations, Washington, DC..........    13
    Prepared statement...........................................    15

                                 (iii)




   A DANGEROUS SLIDE BACKWARDS: RUSSIA'S DETERIORATING HUMAN RIGHTS 
                               SITUATION

                              ----------                              


                        THURSDAY, JUNE 13, 2013

        U.S. Senate, Subcommittee on International 
            Operations and Organizations, Human Rights, 
            Democracy, and Global Women's Issues and 
            Subcommittee on European Affairs, Committee on 
            Foreign Relations,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:26 a.m., 
in room SD-419, Dirksen Senate Office Building, Hon. Barbara 
Boxer and Hon. Christopher Murphy (chairmen of the respective 
subcommittees) presiding.
    Present: Senators Boxer, Murphy, Paul, and Johnson.
    Also Present: Senator McCain.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good morning, everybody, and welcome. We 
apologize for starting late. We had a vote, which happens 
around here. We are hoping we will have a little bit of a 
breather, here, so we can hear from all of you before we have 
to run off again. But, thank you for your patience.
    I want to welcome everyone to today's hearing on the 
deteriorating human rights situation in Russia. This is a joint 
hearing of the Subcommittee on International Operations and 
Organizations, Human Rights, and Democracy, and Global Women's 
Issues and the Subcommittee on European Affairs.
    In particular, I wanted to thank Senator Murphy for really 
working on this very closely with me, and our ranking members, 
Senators Paul and Johnson, and very happy to see Senator 
Johnson here with us.
    I want to extend a warm welcome to all of our distinguished 
witnesses.
    We are here today to examine the current state of human 
rights in Russia and to better understand what is taking place 
within that country today. Let me be clear, I want to see a 
strong and productive United States relationship with Russia. 
Russia's been an important partner on a range of issues, from 
Iran sanctions to Afghanistan to reducing the number of nuclear 
weapons in the world, and will continue to play a strong and 
influential role on the global stage.
    But, Russia's partnership on a number of issues does not 
preclude us from taking a hard look at what appears to be a 
systematic crackdown on internationally recognized basic 
freedoms, including freedom of association, expression, since 
President Putin assumed the Presidency for a third time, last 
year.
    Sadly, it appears that no one is immune. President Putin 
has targeted both Russian NGOs and highly respected 
international NGOs, including Amnesty International, Human 
Rights Watch, and Transparency International. He has made it 
profoundly difficult for any political opposition to organize 
or to have their voices heard. Most recently, he has targeted 
public health and environmental advocacy organizations and 
groups working for the protection of LGBT individuals. He has 
even put musicians in jail.
    And I want to place in the record a statement from several 
of these musicians, and just read from the last paragraph, ``We 
urge the United States to take notice of what is happening in 
Russia, of how we're slipping backwards, not towards progress, 
but toward repression. We ask you, members of the Senate, to 
work for the release of our friends, who aren't hooligans or 
criminals, but women who have strong views and the courage to 
voice them. Thank you.'' That is a quote, and I would ask 
unanimous consent if I could put this whole statement into the 
record. At this time, I will do that.

[Editor's note.--The statement mentioned above can be found in 
the ``Additional Material Submitted for the Record'' section at 
the end of this hearing.]

    Senator Boxer. In short, it appears that President Putin 
has little tolerance for anyone who appears to disagree in any 
way with the policies of his administration. This is a most sad 
development, particularly for those of us who were encouraged 
by the opening up of political space in Russia, and we are 
curious about whether there are any opportunities to help 
reverse this troublesome tide. And that is what we hope to 
explore today.
    Our first witness is Mr. Frank Jannuzi. Mr. Jannuzi spent 
over 15 years advising the Senate Foreign Relations Committee 
as a policy director and working with then-Chairman Kerry on a 
broad range of issues. He comes to us now as the deputy 
executive director of Amnesty International USA and the head of 
the Washington, DC, office.
    And then we will hear from Dr. Leon Aron. Dr. Aron was born 
in Moscow. He came to the United States as a refugee, in June--
from Russia, from the Soviet Union--in June 1978, at the age of 
24. He is resident scholar and director of Russian studies at 
the American Enterprise Institute. The author of 3 books and 
over 300 scholarly articles and essays, Dr. Aron is an expert 
on matters concerning Russia.
    And then we are pleased to have the former U.S. Ambassador 
at Large for the former Soviet Union, Stephen Sestanovich. In 
this role, Ambassador Sestanovich was the State Department's 
principal officer responsible for policy toward Russia and 
other states of the former Soviet Union from 1997 to 2001. 
Currently, he is the George F. Kennan senior fellow for Russian 
and Eurasian Studies at the Council on Foreign Relations and a 
professor of international diplomacy at Columbia University.
    Our fourth witness is Dr. Ariel Cohen, a senior research 
fellow for Russian and Eurasian studies and international 
energy policy at the Heritage Foundation. A leading expert on 
Russia, Eurasia, Eastern Europe, and the Middle East, Dr. Cohen 
has authored numerous books and has written many articles on 
Russian, foreign, and domestic policy.
    And finally, it is certainly our great pleasure to have the 
Honorable Boris--oh, I have to say it right--Nemtsov. In 
addition to being a former Deputy Prime Minister of Russia, Mr. 
Nemtsov is cochairman of the Republican Party of Russia--
People's Freedom Party. In January 2011, he was sentenced to 15 
days in jail after taking part in a New Year's Eve opposition 
rally.
    We are grateful for the wealth of knowledge and breadth of 
experience that our panel members will offer to share with us 
today.
    And I now turn to Senator Johnson, then Senator Murphy, 
then Senator Paul, for their opening statements.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Madam Chair. And I want to 
thank all the witnesses for appearing here.
    In February 2009, Vice President Biden said it was ``time 
to press the reset button with Russia.'' Secretary Clinton and 
the administration went out of their way to repair the United 
States-Russian relationship, some would say at the expense of 
our European allies. For example, the United States agreed to 
an unnecessary nuclear arms reduction treaty with Russia which 
is weighted heavily in Russia's favor. President Obama even 
offered President Medvedev more flexibility on U.S. missile 
defense in Europe after his election. It appears that the 
President has fulfilled that promise.
    Despite these accommodations, relations between our two 
nations have continued to deteriorate. Just this week, in an 
effort to gain favor with other anti-American leaders, the 
President proactively offered to considering an asylum request 
for the American who leaked NSA programs to the press, but no 
requests have been received for asylum.
    Just to name a few issues that we have had with Russia in 
recent years is Russia's assistance to Iran's nuclear programs 
and watering down Iran's sanctions of the United States--or, 
the U.N. Security Council, individual Russian entities 
providing assistance to Iran's ballistic missile programs, the 
Russian invasion and continued occupation of Georgia, Russia's 
war games simulating a nuclear attack on our NATO ally, Poland, 
and energy disputes with its neighbors, and arms to the Syrian 
regime, the most recent and probably most damaging example.
    Russia could be an extraordinary force for good in the 
world, but I am troubled by the direction it is turning. It is 
time to reexamine our policies and learn from our mistakes. 
Given the current internal situation and the relationship 
between our governments, it would be hard for anyone to argue 
that our strategy is working. Americans are truly concerned 
with the decline of basic fundamental freedoms in Russia. 
Freedoms of speech and assembly, free and fair elections, and 
the rule of law are all under assault. The level of corruption 
makes it hard for businesses to operate.
    One of the most troubling issues is the treatment of civil 
society. Instead of moving toward a more democratic and 
prosperous nation, the government is backsliding, becoming more 
authoritarian, corrupt, and hostile to its neighbors.
    Today, we have a panel of experts to help Congress as we 
examine these issues.
    Thank you all for being here today. I look forward to 
learning more about Russia's deteriorating human rights 
situation and ways in which the U.S. Congress and the 
administration can work together to adapt our strategy in order 
to make a difference.
    Thank you.
    Senator Boxer. Thank you.
    Senator Murphy.

         OPENING STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Well, thank you very much, Senator Boxer.
    And thank you, to your subcommittee, for joining our 
Subcommittee on European Affairs in this very important 
hearing.
    Thanks to our witnesses for being here, and we want to get 
to your testimony.
    You know, in the 1930s, Josef Stalin carried out a sweeping 
campaign of political repression in order to consolidate his 
power--locked up hundreds of thousands of political opponents 
across Russia. It was called ``The Great Purge.'' What we are 
witnessing today in Russia, as President Putin cracks down on 
political dissent and shutters much of civil society, is not 
yet ``The Great Purge,'' but this hearing will draw light on 
the dangerous trendlines in Russia that are beginning to 
suggest that this great nation is backsliding to a part of its 
history that it should not and cannot repeat.
    The question of civil society's role in Russia matters to 
us because, as Senator Boxer has said, Russia matters to us. It 
is one of the world's top energy producers, it has got a U.N. 
Security Council veto, it is a--got a stockpile of 10,000 
nuclear warheads in--strategically located at the crossroads of 
Europe and Asia. More than 1,000 American companies do business 
in Russia, and Russia is a growing market for American goods 
and services. The European Union, our largest trading partner, 
relies on Russia for one-third of its oil and gas imports. We 
need Russia to be an ally, but it cannot be if the government 
is constantly continuing this pattern of scaring off or locking 
up political opponents.
    One particularly egregious example of the Russian 
Government's overreach has been its recent treatment of NGOs. 
In July of last year, Russia approved a law requiring NGOs that 
receive any foreign funds, no matter how small the amount, to 
register as a, ``foreign agent.'' Any NGO that fails to comply 
would be fined thousands of dollars. And, in addition to 
limiting NGOs' activities, in a practical manner, the laws have 
an enormous chilling effect by signaling that groups will be 
subject to extra scrutiny by the government.
    Now, Americans do not provide financial assistance to civil 
society groups, either individually or collectively through 
government, in order to undermine other democracies. We do it 
because we want to help strengthen them. We do it because we 
want to help empower people to shape their communities, engage 
with their governments, and ultimately leave their children a 
better place to live. I strongly hope that the Russian 
Government will reconsider its approach and allow organizations 
to operate transparently and receive support in accordance with 
international norms.
    Russia is not yet holding another ``Great Purge,'' but, as 
the trumped-up arrests mount of the government's political 
opponents, it is interesting to note that, during ``The Great 
Purge,'' a Russian brought to court on political charges 
actually was 20 times more likely to be exonerated than he is 
today under similar charges. For Russia to be a full-fledged 
card-carrying member of the international community, this 
cannot continue.
    And I look forward to today's hearing.
    Senator Boxer. Thank you, Senator.
    Senator Paul.

             OPENING STATEMENT OF HON. RAND PAUL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator Paul. I want to thank the Chairwoman for convening 
this hearing on human rights in Russia, and I look forward to 
hearing from the experts.
    Thank you.
    Senator Boxer. Thank you very much.
    So, we are going to start off with our first witness, Mr. 
Frank Jannuzi, deputy executive director of Amnesty 
International.

   STATEMENT OF FRANK JANNUZI, DEPUTY EXECUTIVE DIRECTOR OF 
 ADVOCACY, POLICY AND RESEARCH, INTERIM COEXECUTIVE DIRECTOR, 
              AMNESTY INTERNATIONAL, NEW YORK, NY

    Mr. Jannuzi. Thank you, Madam Chairwoman. Thank you, 
members of the panel. It is my honor to appear before you this 
morning on this side of the table. It feels a little different 
than being on the other side of the table, but I am very 
pleased to be here.
    As all of the members of this panel have pointed out, 
freedom is under assault in Russia. New bills passed just this 
week restrict nongovernmental organizations, criminalize 
actions that are committed, ``to insult religious feelings of 
believers,'' and they outlaw activism by lesbian, gay, 
transsexual individuals, and their supporters. These new laws 
are coming at a time when political expression, freedom of 
assembly, freedom of speech in Russia are already deeply 
constrained.
    Amnesty International has developed a timeline infographic 
that tracks the major clampdown on freedom of expression in 
Russia. And this infographic tool visually illustrates that 
arrests and other measures to stifle public dissent are 
widespread and systematic, and that they have accelerated 
greatly since Putin's inauguration in 2012.
    The clampdown coming as Russia prepares to host the 2014 
Sochi Winter Olympics should be a matter of grave concern to 
all Americans. Moscow's lack of respect for basic human rights 
speaks volumes about its reliability as an international 
partner on vital national security issues, whether those are in 
Syria or nuclear nonproliferation concerns on the Korean 
Peninsula.
    It is not just individuals who are under assault. As 
Chairwoman Boxer has already said, nongovernmental 
organizations are coming under enormous scrutiny, labeled as 
foreign agents, and we are concerned that this is just ``round 
one.'' Not every organization has the kind of international 
support and strength that Amnesty International enjoys. We are 
not worried about our operations in Russia. We are very worried 
about the more vulnerable groups, especially in Russian civil 
society.
    Let me underscore two important points. The first is that 
this crackdown is not about silencing opponents only on the 
political fringes. This is about stifling all who would 
question consolidation of power under President Putin and his 
Siloviki allies. President Putin's network is consolidating the 
power over, not only economic matters, but also political 
matters. And the influence of his KGB-trained operatives, and 
their willingness to use force to maintain their status, should 
not be underestimated.
    The second point is that this repression is arguably more 
pronounced in certain regions of Russia, especially the North 
Caucasus, where authorities use the excuse of counterterrorism 
operations to justify all manner of serious human rights 
violations, from disappearances, torture, or even extrajudicial 
killings.
    I want to try to put a human face on this problem. That is 
what Amnesty International is known for. Russia's most famous 
prisoners of conscience at the moment are the members of the 
band Pussy Riot. Now, inside Russia, and here in Washington, 
they can be a polarizing group. I am more of a Sondheim fan 
than I am of their music. But, we should all agree that their 
brief performance in Christ the Savior Cathedral should not be 
the cause of years of imprisonment. Amnesty International has 
developed a viewer guide to accompany the just-released HBO 
documentary about the band. It is called ``Pussy Riot of Punk 
Prayer.'' And our viewer guide illustrates how the band members 
were singled out for their political protest against Putin, and 
how they were systematically denied a fair trial. We are 
calling on the Russian authorities to immediately release the 
two imprisoned band members, Marie Alekhina and Nadya 
Tolokonnikova.
    A quick word about Nadya. I was pleased to host her and her 
daughter, Ghera, in Washington, DC, last fall. Her daughter, 
Ghera, is 5 years old. She just wants her mother back. This is 
the face of the repression in Putin's Russia. It is 5-year-olds 
taken from their mothers because of 1-minute rock performances.
    I know time is short at this hearing, and so let me 
summarize by going to what I believe you can do.
    First, continue to shine a spotlight on what is happening 
in Russia. To paraphrase the motto of Las Vegas, ``What happens 
in Moscow must not stay in Moscow.''
    Second, insist that President Obama does not give President 
Putin a get-out-of-the-doghouse-free card when he travels to 
Russia in September. There should be no reset button on 
political repression.
    Third, join Amnesty International's Defenders of Freedom 
Program. This is a cooperative joint venture we launched with 
the Tom Lantos Human Rights Commission last fall. Every Member 
of Congress is invited to adopt an amnesty prisoner of 
conscience. Your voices can unlock cell doors.
    And finally, as Senator Murphy has said, find ways to 
support Russia's budding civil society sector. This is not 
about turning Russia's civil society activists into foreign 
agents. It is about recognizing them as foreign partners 
striving for human rights, rule of law, environmental 
protection, and other laudable goals.
    These steps can make a difference.
    I look forward to your questions and thank you for your 
attention.
    [The prepared statement of Mr. Jannuzi follows:]

                 Prepared Statement of Frank S. Jannuzi

    Thanks for inviting me to testify before the Senate Foreign 
Relations Committee on the subject of Russia's deteriorating human 
rights situation. I have submitted my full testimony for the record, 
and request permission to briefly summarize my remarks.
                                overview
    In recent months, Russian authorities have intensified their 
assault on basic freedoms and undermined rule of law. The assault takes 
many forms. New bills--passed just this week by the country's lower 
House of Parliament and expected to be approved in the near future by 
the upper House of Parliament and signed into law by President Vladimir 
Putin--restrict the activities of nongovernmental organizations, 
criminalize public actions ``committed to insult the religious feelings 
of believers'' and outlaw activism by lesbian, gay, bisexual, 
transgender, and intersex (LGBTI) individuals and their supporters. I 
would note that the new law criminalizing ``propaganda of 
nontraditional sexual relations,'' passed 436--by the rubber stamp Duma 
this week, comes as much of the world marks Pride month.
    New controls over the media are being used to smear government 
critics and bolster the government's policy line. Authorities use 
secret detention facilities and torture, especially in the North 
Caucuses region, to silence critics and deny them access to counsel. 
These measures are widespread and systematic. They are being imposed on 
domestic and international civil society groups alike.
    This crackdown, coming as Russia prepares to host the 2014 Winter 
Olympics in Sochi, should be a matter of grave concern to the U.S. 
Government. Moscow's lack of respect for human rights speaks volumes 
about its reliability as a potential partner to the United States and 
Europe in addressing pressing international security concerns, from the 
conflict in Syria to the danger of nuclear proliferation. Moreover, it 
marks an ominous turn in a country that had been making progress toward 
developing more open, transparent, and accountable governance.
    Many of you may be aware that Amnesty International has itself been 
subjected to various forms of harassment. For some NGOs, the 
significance of this particular brand of harassment is that it can 
result in self-censorship, restriction of activities, or flight. John 
Dalhuisen, Amnesty International's Europe and Central Asia Director, 
has expressed our concern that Russia's new NGO law will be used to 
target prominent civil society organizations. Already 43 Russian 
nongovernmental organizations in 16 regions are undergoing inspections 
and investigations, with devastating effect. Many prominent 
organizations, such as Golos (Voice) Association which monitors 
elections, the Levada Center for sociological research, the Moscow 
School for Political Research, and the Human Rights Center Memorial, 
have been labelled by prosecutors as ``Foreign Agents.'' Our biggest 
concern is that this is just ``round one,'' and that forced closures 
are likely to follow.
    Indeed, the National Democratic Institute and the International 
Republican Institute--arms of the National Endowment for Democracy 
funded by Congress--have already suspended operations in Russia given 
the threat that their employees might be charged with treason or 
espionage. This is because the NGO law passed late last year provides 
for sentences of up to 20 years for individuals ``providing 
consultative assistance to a foreign organization'' if that group was 
involved in ``activities aimed against Russia's security,'' a catch-all 
phrase that could be used to criminalize almost any activity the 
government deems hostile.
                        prisoners of conscience
    Amnesty International coined the term ``Prisoner of Conscience'' to 
describe individuals who have been imprisoned for the peaceful 
expression of their beliefs or identity. These individual cases are 
often emblematic of systemic problems, so let me briefly highlight some 
cases to underscore two key points:

          (1) First, Russia's crackdown is not just about silencing 
        opponents at the political fringes. It is about stifling all 
        who would question the consolidation of power under President 
        Putin and his Federal Security Service (FSB) siloviki 
        associates. This network of former and current state security 
        officers is consolidating control over all key political and 
        economic levers of power in Russia. The influence of these KGB-
        trained operatives, and their willingness to use force to 
        maintain their privileged status, should not be underestimated.
          (2) Second, while the stifling of dissent is widespread, it 
        is arguably most pronounced in the North Caucuses region, home 
        to violent insurrections against Russian rule for centuries. 
        Human rights defenders who bravely speak out about the 
        situation in the North Caucuses region are particularly at 
        risk.

    Russia's most famous Prisoners of Conscience are the members of the 
band Pussy Riot. Pussy Riot's 1-minute long performance in Christ the 
Savior Cathedral in Moscow, and the band members' subsequent arrest and 
sentencing, sparked a global outcry and brought Russia's mounting 
repression to an international audience. The YouTube video of their 
punk performance, in which they criticized President Putin, generated 
over 3,000,000 YouTube views.
    Amnesty International championed the case of Pussy Riot, not 
because we have an opinion on their musicality--I am more of a Sondheim 
fan myself--but because we recognize that artists are often at the 
cutting edge of political commentary. When artists are arrested for 
exercising their fundamental right to freedom of expression--whether in 
China with painter and sculptor Ai Wei Wei, in Egypt with TV Bassem 
Youssef, or in Burma with comic Zarganar--broader restrictions on the 
general public are likely to follow.
    Two of three Pussy Riot members remain imprisoned, and Amnesty 
International has designated them as Prisoners of Conscience. We are 
calling on Russian authorities to immediately and unconditionally 
release Maria Alekhina and Nadezhda Tolokonnikova and clear all charges 
against them.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Nadezhda ``Nadya'' Tolokonnikova is serving a 2- year sentence at 
the notoriously brutal IK-14 women's penal colony in the Republic of 
Mordovia. Prior to her arrest, Nadya was a student of philosophy at 
Moscow State University and split her time juggling the demands of 
being a student, mother, and a political activist. Her daughter Ghera 
is 5 years old. I had the honor to meet Ghera last fall when I hosted 
her along with a more famous human rights activist--Daw Aung San Suu 
Kyi--at the Newseum. Ghera misses her mommy very much.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The second jailed Pussy Riot band member, also a Prisoner of 
Conscience, is Maria ``Masha'' Alekhina. Masha has a 4-year-old son, 
Philip. She was a senior at the Institute of Journalism and Creative 
Writing in Moscow prior to her arrest. Masha is serving the rest of her 
term in Perm Krai, a Siberian region notorious for hosting some of the 
Soviet Union's harshest gulags. Like Ghera, Masha's son misses his 
mother very much.
    An HBO documentary--``Pussy Riot: A Punk Prayer''--debuted this 
week, and Amnesty International, in collaboration with the producers, 
has produced a viewing guide, available at our Web site 
www.amnestyusa.org. Concerned citizens--including Members of Congress--
can also express solidarity for the band members by visiting 
pussyriot.amnestyusa.org.
    Unfortunately, the case of Pussy Riot is just the tip of the 
iceberg when it comes to political repression in Putin's Russia. Other 
critics of the government--less colorful, perhaps, but no less brave--
suffer in obscurity. They are likely to be treated even more harshly 
than their more famous kindred spirits.
    The situation is especially grave in the North Caucasus region, 
which has been characterized by insecurity and armed attacks on 
security forces, civilians, and local officials. Many Americans may 
have first become aware of this region during the Boston Marathon 
bombing, but the region has long been troubled. Heavy-handed security 
operations have led to human rights violations such as extrajudicial 
executions, enforced disappearances, secret detention, torture, and 
other forms of ill-treatment.
    The absence of rule of law fuels unrest. The criminal justice 
system of Russia is set up to deliver quick convictions, not justice. 
Defense lawyers are often seen as obstacles to law enforcement 
officers, who would prefer to see them removed from the equation 
altogether. Lawyers who dare to defend individuals suspected of 
membership in armed groups are themselves often threatened, attacked, 
or murdered by law enforcement officials. Complaints against law 
enforcement officials often receive no response, are dismissed, or are 
countered by criminal investigations against those who have filed the 
complaint.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The case of Sapiyat Magomedova is emblematic. As a defense lawyer, 
Magomedova is known for her work on cases involving human rights 
violations committed by law enforcement agencies in Dagestan. In June 
2010, when she went to the Khasavyurt town police station to visit a 
client, police officers prevented her from gaining access to her 
client. They forcibly removed her from the police station and 
physically assaulted her. When she attempted to file a complaint about 
the attack, the police launched their own investigation saying that she 
in fact attacked them. Investigators repeatedly tried to pressure her 
into withdrawing her complaint, and warned her that she would face 
criminal charges herself if she pressed ahead. She refused to be 
intimidated. In the end, the courts dismissed both complaints--hers and 
that of the police--without explanation. While some might have 
interpreted this as a victory, she doesn't see it that way, and neither 
does Amnesty International. When police assault lawyers simply for 
attempting to do their jobs, the authorities should hold those police 
accountable. Magomedova is still seeking justice, and still being 
persecuted for her persistence. Just last month, Magomedova reported 
receiving death threats via text messages. Amnesty International stands 
beside this brave human rights defender and supports her call for 
justice and accountability.
                           what can be done?
    There are no quick fixes to reverse the ever shrinking space for 
freedom of expression in Russia. A blend of public and private 
initiatives may work best. Let me suggest four things the members of 
this committee can do to perhaps deter some of the worst of the abuses 
and support those inside Russia who are courageously doing their part 
to advance human rights and rule of law.

  <bullet> First, continue to shine a spotlight on what is happening 
        and help the American people understand why they should care. 
        Ideally, you should synchronize your efforts with 
        parliamentarians in Europe and through the Helsinki process, 
        because when you speak in unison with your fellow legislators, 
        your voices are amplified. Russia is a great power with 
        enormous potential to help solve the world's problems. But what 
        happens in Moscow does NOT stay in Moscow. It speaks volumes 
        about Russia's reliability as a global partner of the United 
        States in every field, from trade to international security.
  <bullet> Second, insist that when President Obama travels to Russia 
        in September, that he put human rights prominently on his 
        summit agenda. The Russian Government cares about its 
        reputation, and the United States should not give President 
        Putin a free pass on repression.
  <bullet> Third, join Amnesty International's Defenders of Freedom 
        program, a cooperative venture we launched last fall with the 
        Tom Lantos Human Rights Commission and the International 
        Religious Freedom Commission. You can adopt a certified Amnesty 
        Prisoner of Conscience and tell their story on your web pages, 
        give floor statements about them, and pass resolutions calling 
        for their release. YOUR voices can help unlock cell doors, and 
        we've already done the research work for you.
  <bullet> Finally, notwithstanding budget pressures and Russian 
        restrictions, you can generously support funding for 
        nongovernmental organizations striving to strengthen Russian 
        civil society. Training in international human rights law for 
        journalists, lawyers, judges, and even public security 
        officials can improve their performance and better equip them 
        to be human rights champions. And let me say for the record 
        that this is NOT an appeal for funding for Amnesty 
        International. We don't take government money for our research 
        or advocacy.

    These would all be constructive, welcome steps. You may not win any 
thanks from President Putin, but I can assure you, as a representative 
of the world's largest grassroots human rights organization, that your 
efforts can make a difference in the lives of Nadia, Masha, Sapiyat, 
Ghera, and countless other brave citizens of Russia who would will 
benefit if the U.S. Senate makes a firm commitment to advancing human 
rights at home and abroad.

[Editor's note.--The attachments to Mr. Jannuzi's prepared statement 
can be found in the ``Additional Materials Submitted for the Record'' 
section at the end of this hearing.]

    Senator Boxer. Thank you. I thought you gave us some very 
good ideas.
    Next, we welcome Dr. Leon Aron, of the American Enterprise 
Institute.
    Welcome, sir.

   STATEMENT OF LEON ARON, RESIDENT SCHOLAR AND DIRECTOR OF 
 RUSSIAN STUDIES, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Aron. Thank you very much, Madam Chairwoman, Ranking 
Senator Johnson, Senators Paul and Murphy.
    In the summer of 2011, Dan Vajdic and I were fortunate to 
travel from Vladivostok to Kaliningrad across Russia to 
interview leaders and activists of nongovernmental 
organizations and movements. The conclusions from more than 40 
hours of interviews and over 300 pages of transcripts are in 
this report, titled ``A Quest for Democratic Citizenship,'' 
which I ask to be entered to the record, subject to format 
rules and regulations.
    I recall this report because I want to put causes and faces 
on the tragedy--and it is a tragedy--that is unfolding in 
Russia today.
    These were among the finest men and women I have met 
anywhere. They were fearless, hardworking, smart, and 
absolutely unyielding in their quest for fairness and justice. 
None of these organizations and movements were political, 
overtly or covertly. What united them was the moral imperative 
of dignity in democratic citizenship, including, first and 
foremost, equality before the law and the end of effective 
disenfranchisement. In that, they were not different from the 
civil rights movement in the United States or the Arab Spring 
or the cause of the Chinese dissidents today.
    All of the organizations I visited--and I keep in touch 
with all of them--are now under pressure and harassment. One of 
them, the Baikal Ecological Wave, which, for many years, has 
been trying to save the world's largest body of freshwater from 
pollution, is facing the same humiliating choice as the 
hundreds of other nongovernmental organizations of Russia. To 
register as alleged foreign agents because the only support 
they could get is from foreign environmental organizations will 
close down and abandon its cause for good.
    Looking ahead, let me mention three major implications of 
the crackdown on civil society in Russia today. I will list 
them in the order of growing importance, from short-term and to 
long-term impacts.
    First, the prospects for better United States-Russian 
relations seem bleak. Any substantive reset with the United 
States would contradict the regime's dominant domestic 
narrative of propaganda and repression in which the United 
States is featured as the key alleged threat to Russian 
security and domestic stability. It is possible, of course, 
that the regime would try and combine repression with detente. 
It happened before. But, this Kremlin does not seem to be in 
the mood for sophisticated bifurcation of its domestic and 
foreign policies.
    Second, a year into authoritarian consolidation following 
Vladimir Putin's reelection, what we are witnessing is a 
significant change of the regime, from a relatively soft 
authoritarianism to a much harder, more repressive, more 
malignant version. The harassment and self-exile of the leading 
Russian economist and establishment reformer, Professor Sergei 
Guriev, 2 or 3 weeks ago, was another signal of the regime's 
moving in that direction.
    The Kremlin's message to the establishment, liberal, pro-
reform, pro-democracy men and women in the elite seems to be 
something like this, ``Stop criticizing the government or risk 
harassment, or even jail. If you don't like the deal, leave 
while the going is good. Those of you who choose to stay,'' in 
the words of the leading opposition blogger, Yulia Latynina, 
``must, in all honesty, believe that the greatness of Russia 
lies in Vladimir Putin and that the source of protests against 
the great Putin can only be a world conspiracy and the `fifth 
column' inside the government.''
    Finally, I called it ``the tragedy.'' I called it a 
tragedy. And it is. The assault on civil society unfolding in 
Russia today is a tragedy for Russia, because nongovernmental 
organizations, grassroots organizations, are, first and 
foremost, a school of democracy. They teach personal 
responsibility, self-organization, peaceful dissent, 
compromise, solidarity, and respect for law. And what is left--
and that is what is being destroyed--and what is left in the 
rubble are only stagnation, hatred, and radicalism. What is 
left is scorched earth, incapable of upholding democratic 
institutions when the regime falls, just as happened in the 
Soviet Union.
    Thank you very much, Madam Chairman.
    [The prepared statement of Mr. Aron follows:]

                    Prepared Statement of Leon Aron

    Thank you, Mr. Chairman. In the summer of 2011 I crossed Russia's 
11 time zones, from Vladivostok to Kaliningrad, to interview about two 
dozen leaders and activists of six nongovernmental organizations and 
movements. The analytical conclusions from more than 40 hours of 
interviews and over 300 pages of transcripts, are in this report, 
titled ``The Quest for Democratic Citizenship'' which I ask to be 
entered in the record, subject to format rules and regulations.
    But this was far more than a field study for me. These were among 
the finest men and women I've met anywhere. They were fearless, 
extremely hard working, smart and absolutely unyielding in their quest 
for dignity in democratic citizenship. None of the organizations and 
movements whose leaders and activists I interviewed was overtly 
political much less oppositional. Two of them were environmental; one 
was battling the destruction of historic buildings in St. Petersburg; 
one was concerned with road safety and the corruption of the traffic 
police; and two advocated honest elections and freedom of speech and 
demonstrations.
    What united them all was the moral imperative of dignity in 
democratic citizenship, including, first and foremost, equality before 
the law and the end of effective disenfranchisement through 
restrictions on party registration and falsification of the election 
results. In these key regards, their core demands were no different 
from the civil rights movement in the United States or the demands of 
the Arab Spring or the cause of Chinese dissidents today.
    I describe them here for you because I want to put causes and faces 
on the tragedy that is unfolding in Russia today. All of the 
organizations I visited are now under pressure and harassment. One of 
them, Baikal Ecological Wave which for many years has been trying to 
save the world's largest body of fresh water from pollution is facing 
the same choice as hundreds of other organizations: to register as a 
foreign agent, because the only support it gets is from foreign 
environmental organizations--or close down and abandon its cause.
    Looking ahead, I see three main implications of this crackdown on 
civil society in Russia. Let me list them in the order of importance 
and from short term to longer time periods.
    First, the prospects for U.S.-Russian relations seem bleak. Any 
substantive reset with the U.S. would contradict the regime's dominant 
domestic narrative of propaganda and repression, with the U.S. as the 
key alleged threat to Russian security and domestic stability. It is 
possible, of course, that the regime would try and combine repression 
with detente but it is unlikely: the Kremlin today seems in no mood for 
sophisticated bifurcation of its domestic and foreign policies. 
Dictated by the considerations of regime survival, the worsening of 
relations with the United States may be seen as a boost to the domestic 
legitimacy of the regime which presents itself as the defender of 
Russian sovereignty against the plotters from abroad, aided by paid 
traitors at home. Thus, expect no accommodation on Syria or Iran--or 
anything else that might be seen domestically as ``concession to the 
U.S.'' Indeed, even strategic nuclear arms reduction may fall victim to 
the same domestic political calculus despite the administration's 
concerted efforts to assuage Russia's concerns over the missile defense 
in Europe.
    Second, what we are witnessing after a year of authoritarian 
consolidation, following Putin's reelection in March of last year, 
looks more and more like a significant change of the regime from a 
relatively softer authoritarianism to a much harder and malignant 
version. The harassment and self-exile of a leading Russian economist 
and establishment reformer Professor Sergei Guriev has signaled a 
unilateral renegotiation of the longstanding social compact with the 
liberal public opinion leaders. If previously proreform members of the 
establishment could write what they wanted and be safe from repression 
so long as they were not actively supporting political opposition, the 
Kremlin's message today is: You must stop public criticism of the 
government--or risk harassment and even jail. If you don't like the 
deal, leave while the going is still good. Those who chose to stay, in 
the words of a leading opposition blogger Yulia Latynina, ``must in all 
honesty believe that the greatness of Russia in lies in Vladimir 
Putin,'' and that ``the source of protests against the great Putin can 
only be a world conspiracy [by the West] and the `fifth column' inside 
the government.'' \1\
    Finally, and most damagingly in the long run, the assault on civil 
society is a tragedy for Russia because nongovernment organizations 
are, first and foremost, a school of democracy that teach personal 
responsibility, self-organization, peaceful dissent and compromise. 
Although on the personal level they detested the regime and never hid 
this attitude, the leaders and activists I interviewed were utterly 
pragmatic, ready to compromise and cooperate in the service of their 
cause. ``Our attitude toward the government is that when we can 
cooperate with it, we do,'' a young woman in Vladivostok told me. 
``When we think that the regime's policies are wrong, we don't hesitate 
to say it openly.''
    This is what is being destroyed! Left in the ruble of civil society 
are only stagnation, hatred, and radicalism. Left behind is scorched 
earth, incapable of upholding democratic institutions, when this regime 
falls or implodes--just as happened after the fall of the Soviet Union.
    Thank you Mr. Chairman. I ask that in addition to my study of civil 
society organizations, two recent articles of mine, published in the 
Washington Post and the Wall Street Journal, be entered into the 
record, subject to format rules and regulations.

----------------
End Notes

    \1\ Yulia Latynina, ``Pikseli odnoy kartinki,'' gazeta.ru, May 31, 
2013 and ``Doktor, a otkuda u vas takie kartinki?'' novyagazeta.ru, 
June 1, 2013.

[Editor's note.--The report ``A Quest for Democratic Citizenship'' 
submitted for the record was too voluminous to include in the printed 
hearing. It will be retained in the permanent record of the committee.
    The Washington Post and Wall Street Journal articles can be found 
in the ``Additional Material Submitted for the Record'' section at the 
end of this hearing.]

    Senator Boxer. Thank you.
    And now we turn to Ambassador Sestanovich, who was the 
State Department's principal officer responsible for policy 
toward Russia, 1997 to 2001, and he is now at the Council on 
Foreign Relations.

   STATEMENT OF HON. STEPHEN SESTANOVICH, SENIOR FELLOW FOR 
  RUSSIAN AND EURASIAN AFFAIRS, COUNCIL ON FOREIGN RELATIONS, 
                         WASHINGTON, DC

    Ambassador Sestanovich. Thank you very much. Senator Boxer, 
Senator Murphy, members of the committee, thank you for 
inviting me to join this timely and important discussion.
    From the other witnesses on today's panel, you are 
receiving a full and informed picture of Russian political 
developments. It is a discouraging picture. But, the key 
question that this committee faces is, How should the United 
States respond? Let me suggest five things that we, and 
especially you, as Members of Congress, can do.
    First, we need to stay out of the political struggle that 
is underway in Russia. Those who are trying to exercise their 
political rights to bring Russia into the European democratic 
mainstream are not asking us for direct assistance. They 
recognize that Putin wants to draw us into the middle of 
Russian politics because he thinks it will help him to stay on 
top. The United States should leave no confusion on this score. 
Russia's political course is for Russians to set. We may have 
our favorites, but we do not fund them. Sharpening the line 
between what we do and what we do not do can only help us.
    Second, we should, at the same time, be emphatic that it is 
an international norm for nongovernmental organizations to be 
able to reach out to foreign donors. Doing so does not make 
them foreign agents. Claiming that they are is a crude attack 
on civil society that pits Russia against principles around 
which European countries have rallied since the end of the cold 
war. And not just European countries. Consider the recent 
resolution of the United Nations Human Rights Council, which 
declared that no state should, ``delegitimize activities in 
defense of human rights on account of the origins of funding 
thereto.'' When Putin has a majority against him at the United 
Nations, you know he is on shaky ground.
    Third, even as we stay out of Russian politics, we should 
increase our support for civil society in Russia. Congress can 
take an important step in this direction by reviving 
consideration of a United States-Russia civil society fund. A 
year and a half ago, the Obama administration notified Congress 
of its intention to use some of the proceeds from the now 
liquidated U.S.-Russia Investment Fund to create such a fund. 
In light of recent developments, two adjustments of the 
administration's plan are called for. First, the amount should 
be bigger. Use all the proceeds, a full $162 million. And with 
no budgetary impact for the United States, let me add. And it 
should not be focused just on Russia. A fund to support civil 
society in all the countries of the former Soviet Union would 
advance American interests in this entire region.
    Fourth, Congress should remind the administration that the 
Freedom Support Act is still on the books and that our national 
commitment to its goals is intact. For many years, the U.S. 
Agency for International Development oversaw most of the 
funding that Congress made possible in this area. But AID has 
ceased to operate in Russia. Congress should insist on hearing 
a credible plan from the administration for how the funds it 
has made available are to be spent effectively.
    Fifth, we should remember that American strategy since the 
end of the cold war has reflected the unusual weakness of civil 
society in countries that were ruled, for decades, by Soviet-
style dictatorships. Eventually, nongovernmental organizations 
of the kind that we take for granted in modern societies need 
to be self-sustaining. They need support from domestic donors. 
Congress should ask the administration what strategy it has for 
encouraging support for Russian NGOs from within Russia, 
itself.
    For the past 2 years, Congress has wrestled with the 
question of how to modernize our support for human rights and 
democracy in Russia. The measures I have described, and others 
like them, would be a sign that we still have the ideas, the 
resources, and the commitment to advance our interests in this 
way.
    Thank you.
    [The prepared statement of Ambassador Sestanovich follows:]

          Prepared Statement of Ambassador Stephen Sestanovich

    Senator Boxer, Senator Murphy, members of the committee, thank you 
for inviting me to join this timely and important discussion. America's 
concern for the state of Russian democracy is sometimes portrayed as an 
intrusion into another country's affairs. The truth is different. Our 
concern reflects a strong commitment to partnership between the two 
countries. We have many reasons to hope for democratic consolidation in 
Russia, but one reason is perhaps more important than any other. 
Without it, Russian-American cooperation--which is very much in our 
national interest--will never take secure root.
    From the other witnesses on today's panel, you will receive a full 
and informed assessment of Russian political developments. It is a 
discouraging picture. Over the past year and a half President Putin and 
his supporters have put in place a new strategy to restabilize their 
rule after the protest of 2011-2012. One key element of their strategy 
is to portray challengers to the status quo as instruments of foreign 
manipulation. This was Mr. Putin's first rhetorical jab at those who 
demonstrated against fraud in the parliamentary elections of December 
2011. (It was Hillary Clinton, he claimed, who had ordered them into 
the streets.) The same impulse lives on in the new law requiring 
Russian NGOs to register as ``foreign agents'' if they receive any part 
of their funding from abroad.
    There are some puzzling elements of Putin's strategy, but his 
political calculation is pretty obvious. He hopes to benefit by 
blurring the distinction between political movements and civil society. 
Many Russian NGOs do get support from abroad. Putin's political 
opponents do not. They do not need, do not want, and should not get 
foreign funds. Even so, if Putin can convince people that the two are 
one and the same--that the protesters are paid by foreigners to rally 
against him--then he has a better chance of keeping Russia's ``silent 
majority'' on his side. This is an obnoxious strategy, but it has 
clearly won some converts for him.
    How should the United States respond? Let me suggest five things 
that we--and especially you as Members of Congress--can do.
    First, we need to stay out of the political struggle that is 
underway in Russia. We are of course, inspired by the efforts of those 
who want to bring Russia into the European democratic mainstream. But 
they are not asking us for direct assistance. They recognize that Putin 
wants to draw us into the middle of Russian politics because he thinks 
it will help him to stay on top. The U.S. should leave no confusion on 
this score. Russia's political course is for Russians to set. We may 
have our favorites, but we don't fund them. Sharpening the line between 
what we do and what we won't do can only help us.
    Second, we should be emphatic that it is an international norm for 
nongovernmental organizations to be able to reach out to foreign 
donors. Doing so does not make them ``foreign agents.'' Claiming that 
they are is a crude attack on civil society that pits Russia against 
principles around which European countries have rallied since the end 
of the cold war. And not just European countries. Consider the recent 
resolution of the U.N. Human Rights Council, which declared that no 
state should ``delegitimize activities in defense of human rights on 
account of the origins of funding thereto.'' When Putin has a majority 
against him at the U.N., you know he's on shaky ground.
    Third, even as we stay out of Russian politics, we should increase 
our support for civil society in Russia. Congress can take an important 
step in this direction by reviving consideration of a U.S.-Russia Civil 
Society Fund. A year and a half ago the Obama administration notified 
Congress of its intention to use some of the proceeds from the now-
liquidated U.S.-Russia Investment Fund to create such a fund. In light 
of recent development, two adjustments in the administration's plan are 
called for. The amount should be bigger (use all the proceeds--a full 
$162 million), and it should not be focused just on Russia. A fund to 
support civil society in all the countries of the former Soviet Union 
would advance American interests in this entire region.
    Fourth, Congress should remind the administration that the Freedom 
Support Act is still on the books--and that our national commitment to 
its goals is intact. For many years, the U.S. Agency for International 
Development oversaw most of the spending that Congress made possible in 
this area. But AID has ceased to operate in Russia. Congress should 
insist on hearing a credible plan for how the funds it has made 
available are to be spent effectively.
    Fifth, we should remember that American strategy since the end of 
the cold war has reflected the unusual weakness of civil society in 
countries that were ruled for decades by Soviet-style dictatorships. 
Eventually nongovernmental organizations of the kind that we take for 
granted in modern societies need to be self-sustaining. They need 
support from domestic donors. Congress should ask the administration 
what strategy it has for encouraging support for Russian NGOs from 
within Russia itself.
    For the past 2 years, as it contemplated Russia's ``graduation'' 
from the Jackson-Vanik amendment, Congress has wrestled with the 
question of how to modernize our support for human rights and democracy 
in Russia. The measures I have described, and others like them, would 
be a sign that we still have the ideas, the resources, and the 
commitment to advance our interests in this way.

    Senator Boxer. Thank you very much.
    We turn to Dr. Ariel Cohen of the Heritage Foundation.
    Welcome, sir.

 STATEMENT OF ARIEL COHEN, SENIOR RESEARCH FELLOW FOR RUSSIAN 
AND EURASIAN STUDIES AND INTERNATIONAL ENERGY POLICY, HERITAGE 
                   FOUNDATION, WASHINGTON, DC

    Mr. Cohen. Thank you, Madam Chairman, Senator Murphy, 
Senator Johnson, Senator Paul, ladies and gentlemen. My name is 
Ariel Cohen. I am senior research fellow at the Heritage 
Foundation and testify in private capacity.
    Russia has missed its historic opportunity to build the 
modern, law-based society and democratic system of governance 
since the collapse of communism in 1991. This is for several 
reasons.
    First, there was no lustration. In other words, members of 
the Communist Party, those who were in senior positions, and 
members of secret services were allowed to continue to rule the 
country.
    Second, the corruption and the failure of the rule of law 
destroyed popular support of democracy.
    Third, Russia had to fill the vacuum of ideology left 
behind by collapsed communism, and moved into the three pillars 
that we recognize from the czarist regime: autocracy, Christian 
Orthodox in Moscow patriarchate, and populism with nationalist 
overtones.
    Why should we care? Why should America care? And why should 
Senate and U.S. Government do anything about it? The answer is 
that the more authoritarian and anti-United States Russia 
becomes, the more difficult it is to do business with the 
Kremlin, be it concerning the civil war in Syria, Iran 
sanctions, large-scale investment, or our support of American 
allies and friends in the former Soviet Union.
    Today, as my colleagues mentioned, the best and the 
brightest of Russia are pushed into exile. Lenin, the founder 
of the Soviet state, first exiled the intellectuals and the 
philosophers by boatload and then the big terror came. Today, 
Sergei Guriev, the founder of the new school of economics and 
very much an establishment figure, was under pressure to leave 
his own country, the country where he advised, at the highest 
level, the Presidency, and was on the board of the largest 
Russian Bank, Sberbank. He had to stay in Paris because of the 
interrogations in the Mikhail Khodorkovsky third investigation. 
Khodorkovsky has been in jail for over 10 years now, and 
everybody expected him to be let go next year. However, the 
signs are, the Russian state is preparing the third kangaroo 
trial of Mikhail Khodorkovsky.
    Another prominent figure is opposition leader, and the 
world chess champion, Garry Kasparov. Garry Kasparov announced 
that he is not going back to Russia, as well.
    So, no, there are no philosophers' boats being shipped to 
the West with hundreds of Russian top talent, but people are 
choosing to stay abroad because of the fear. And I witnessed 
this fear this year, in April, when I was in Yekaterinburg, the 
location of the execution of the czar's family and a place 
where tens of thousands were killed in great terror. People 
came up to me and said, ``We are afraid. Nothing is going to 
change for many, many years.'' This is the first time I hear 
such despair in Russia.
    So, what can we do? Clearly, there are valid and compelling 
bilateral interests in Washington that we need to pursue, 
including our orderly withdrawal from Afghanistan, 
antiterrorism cooperation, the challenge of rising China, 
broadening business relationship, et cetera. This Senate, in 
passing the Jackson-Vanik amendment, created its own track 
record for defense of human rights in Russia. Such pillars of 
the Senate as ``Scoop'' Jackson and Daniel Patrick Moynihan 
were at the forefront of fighting for human rights in Russia.
    Today, the Senate, the Presidency, and the U.S. Government 
at large needs to strike appropriate balance between pursuing 
American security interests and being true to our own values. 
So, what can we do? We can make a stronger case for civil 
freedoms for the Russian people through international 
broadcasting, which is in bad shape. It needs funding, needs 
serious reorganization, needs new talent and new content 
providers. We also need to revisit the Magnitsky List, which 
only has, now, 18 names on it. The Magnitsky List is the living 
memorial for the man who was murdered in a Russian jail, trying 
to be loyal to his American client.
    We also have, as Americans, a wealth of experience to 
offer, be it in legislative policy, in health care, in 
developing investment and high tech. But, this will not happen 
if Russia is not going to be free. This is not going to happen 
if Russia continues to keep laws on books that call NGOs 
``foreign agents'' if they take foreign funding. This is not 
going to happen if the definition of ``treason'' in the 
criminal law has been expanded to be something like what they 
had in Stalin's times.
    Senator Boxer. I am going to ask you to wrap up now.
    Mr. Cohen. So, it is true that it is up to the Russian 
people to make their country free, but it is up to us to give 
support and make our voice heard in support of freedom in 
Russia.
    Thank you very much.
    [The prepared statement of Mr. Cohen follows:]

                   Prepared Statement of Ariel Cohen

    Chairman Murphy, Senator Johnson, ladies and gentlemen. My name is 
Ariel Cohen. I am a Senior Research Fellow, Russian and Eurasian 
Studies and International Energy Policy at The Heritage Foundation. 
First, I want to thank the subcommitee for inviting me to testify and 
hereby ask to enter my remarks in the record. Second, I would like to 
note that I testify in a private capacity and my testimony reflects my 
personal view only and should not be construed as views of The Heritage 
Foundation.
    Russia has missed its historic opportunity to build a modern, law-
based society and a democratic system of government since the collapse 
of communism in 1991. This is for several reasons. First of all, 
remnants of the Communist Party and the security services remained in 
positions of power. No lustration, or political cleansing of the old 
totalitarian system, was undertaken by the Russian people or their 
leaders, most of who belonged to the old regime.
    The second reason for the reemergence of authoritarianism in Russia 
is the lack of rule of law as well as the rampant corruption that 
tainted the economic reform and the implementation of privatization 
during the 1990s, discrediting multiparty democracy and civil freedoms 
in the process. The Russian Communists as well as the nationalists 
exploited the situation, deliberately equating freedom and democracy 
with chaos and moral corruption.
    Russia problems with stinted civil society and abysmal rule of law 
did not start with the collapse of communism. This is a known and 
systemic problem which has become a major roadblock on the road to the 
country's modernization. While czarist Russia had a rather weak and 
somewhat corrupt legal system, the Soviet Union used the law as an 
instrument of oppression, deliberately destroying even the smallest 
manifestation shoot of civil society. Stalin even sent speakers of 
Esperanto and philatelists to the GULAG camps.
    The third reason for the weakness of open society in Russia is 
resurging nationalism, neoimperialism, and the state's alliance with 
the Orthodox Church, which harbors many xenophobic and anti-Western 
elements.
    Taken together, these three elements have combined in Russia to 
produce what we see today: an illiberal regime which is inimical to 
civil society and hostile to the West both ideologically--rejecting the 
values of freedom and individual rights--and geopolitically. The 
predominant, state-supported political ideology in Russia today is 
close to what it was over 100 years ago: Russian Orthodoxy, autocracy, 
and populism with nationalist overtones.
    Why should Americans care? And why should the Senate and the U.S. 
Government do anything about it? The answer is that the more 
authoritarian and anti-U.S. Russia becomes, the more difficult it is to 
do business with the Kremlin, be it concerning the civil war in Syria, 
Iran sanctions, large scale investment, or our support of American 
friends and allies in the former Soviet Union.
    It is harder to get along with large authoritarian states that view 
the U.S. as an adversary, than it is with fellow democracies. However, 
not everyone in Russia is anti-American. Late-Soviet and post-Soviet 
Russian civil society has roots in the dissident movement which began 
under Stalin and was strongly influenced by three Nobel Prize winners--
Andrey Sakharov, Alexander Solzhenitsyn, and Joseph Brodsky, who later 
became a U.S. poet-laureate. Some of the dissidents were pro-Western, 
while others, like Solzhenitsyn, were Russian nationalists and 
themselves deeply suspicious of the democratic West. Many of the 
dissidents provided piercing critiques of Stalinist totalitarianism and 
the late Soviet high authoritarian system. Some survivors of that early 
movement are still with us today, including the octogenarian Lyudmila 
Alexeeva, who recently testified on Capitol Hill.
    Sakharov, Alexeeva, Mstislav Rostropovich, a prominent musician who 
later became conductor of the U.S. National Symphony, Natan Sharansky, 
who became Israeli Deputy Prime Minister and Interior Minister, and 
internationally renowned author, and many others played a key role in 
launching the dissident movement in the late 1960s and early 1970s.
    With selfless dedication, and with the help of some international 
funding, including money provided by the U.S. taxpayer through USAID, 
the National Endowment for Democracy, the International Republican 
Institute, and National Democratic Institute, as well as private 
foundations, such as Krieble, Mott, McArthur, and Soros, Russian civil 
society went from taking its first baby steps to providing a wide array 
of services to hundreds of thousands of people. These include defending 
the civil rights of civilians and minorities in war zones, the fight 
against state corruption and graft, demanding protection against 
Russia's notorious police brutality and lawlessness, upholding the 
human rights of military recruits subject to systemic violence and 
abuse, promoting voters' rights, working to prevent HIV/AIDS and other 
diseases, advocating for the rights of the disabled, and many other 
activities. Recently, actions also focused on protecting those who were 
detained and arrested in the course of political protests after the 
2011 Duma elections, which suffered from widespread voting fraud; as 
well as efforts to promote freedom of the media, including the 
Internet; secure prisoners' rights and highlight abuses in the courts; 
and to further environmental protection activities.
    Civil society, human rights, and independent media activities, 
however, are dangerous pursuits in Russia. The crusading journalist, 
Anna Politkovskaya, was murdered in the entrance to her apartment 
building. Chechen human rights activist Natalia Estemirova was gunned 
down. Anticorruption journalist and Novaya Gazeta editor Yurii 
Schchekochikhin was poisoned. Many journalists were beaten or killed; 
and anticorruption crusader, blogger and politician Alexei Navalny is 
awaiting trial on trumped up criminal charges of embezzlement.
    The latest scandal at the heart of Russia's civil society involves 
a highly respected economist, the founder of the Russian Economic 
School, Sergey Guriev. He was interrogated by the country's top-flight 
Investigative Committee, the high profile investigations branch of the 
Interior Ministry (federal police) which effectively reports to the 
Kremlin. The authorities deliberately blurred Guriev's legal status in 
this case. He was reportedly suspected of taking money from jailed 
YUKOS oil company founder and regime opponent, Mikhail Khodorkovsky, in 
return for providing an expert opinion favorable to the businessman, 
who is now serving his second jail term. After jailing Khodorkovsky for 
a decade, the state alleges that he somehow initiated a review of his 
case by Presidential Human Rights Commission experts in order to 
shorten his 13 year sentence. The charges against Khodorkovsky are 
widely recognized as false. In Guriev's case, however, it is highly 
significant that he was a member of the inner sanctum of the Russian 
establishment, hardly a marginal figure. He undertook his activities on 
behalf of Khodorkovsky within the framework of the Presidential Human 
Rights and Civil Society Council. He was an advisor to former President 
Dmitry Medvedev; in close contact with leading economic ministers and 
pro-Kremlin businessmen; the dean of New Economic School and a star 
economics professor; and a member of the board of Sberbank, the largest 
Russian state-owned savings bank. Guriev's colleagues at the Human 
Rights Council included Tamara Morshchakova, the former Constitutional 
Court Justice; Mikhail Subbotin, an economist from the Higher School of 
Economics, and other prominent establishment figures.
    After Guriev realized that he and his wife were being followed both 
in person and electronically, he fled Russia and now resides in France. 
In a media interview, he said that ``Paris is better than 
Krasnokamensk'' (the East Siberian town where Khodorkovsky's former 
labor camp is located). The charges against Guriev may have been part 
of an effort to launch a third Khodorkovsky trial in which, this time, 
the businessman would stand accused of using his funds to influence the 
Russian expert community in his favor. Khodorkovsky's decades-long 
string of prosecutions is a litmus test of Russian civic development, 
as he funded the liberal opposition Yabloko party, the Open Russia NGO, 
and other nonprofit organizations and activities, including an 
orphanage and an Internet training program, which connected millions of 
Russian schoolchildren with the outside world.
    Khodorkovsky's 2003 arrest and two jail terms marked a retreat from 
civil liberties and a turning away from the period of relatively free 
political activities, and sent a resounding message to the business 
community to stay away not just from politics, but from civic activism. 
Even those who limited themselves to charities and buying Faberge eggs 
for the state museums are now under attack, as has been the case of 
Victor Vekselberg for the thankless job he did of spearheading the 
multibillion dollar Skolkovo high-tech park, which was supposed to 
recreate the Silicon Valley experience Russian style: top to bottom.
    With independent TV channels coming under state control in 2000-
2001, and the oligarchs Vladimir Gusinsky and the late Boris Berezovsky 
were pushed into exile around the same time, Russian TV channels came 
under state control. With democratic opposition parties effectively 
prevented from entering the Duma since 2004, Russian civic society and 
its NGOs, many of them U.S.- and Western-supported, were a breath of 
fresh air in the increasingly oppressive country. However, their 
funding within Russia was severely limited as Moscow never bothered to 
make the support of NGOs fully tax-exempt, and instead offered to 
provide government funding to friendly organizations, effectively 
undermining their independence.
    It took almost 10 years to gradually tighten the screws--despite 
the Bush administration's earnest attempts to collaborate with the 
Kremlin over Afghanistan and Iran. Then came the much-touted ``reset'' 
policy of the Obama administration, which despite offering Russia 
unprecedented concessions, including a strategic nuclear weapons START 
treaty; freezing ballistic missile defense modernization in Europe; and 
a much lower profile for U.S. ties and activities in the former Soviet 
Union, nevertheless failed to protect Russia's civil society. Instead, 
the Obama administration attempted to redefine U.S. support of civil 
society in Russia as financing mostly nonpolitical efforts, like infant 
health and other health care projects. In vain.
    Coming back to current developments, the Guriev affair typifies all 
that is wrong with the crackdown on civil society and the lack of rule 
of law in Russia. The authorities are generating pressure on the best 
and the brightest to leave. Instead of creating conditions for 
electoral pluralism, political party-building, the thriving 
nongovernmental sector, and free media, the state is doing exactly the 
opposite. Some may blame it on the oil and gas windfall, as many petro-
states, for example Venezuela, as well as the Middle Eastern states, 
are stuck between authoritarianism and populism.
    The Russian leadership today rejects the freedom- and law-based 
Western liberal democratic model, and is increasingly pushing Russia in 
the direction of authoritarianism. It is no accident that some of the 
world's most prominent authoritarian regimes are Russia's best friends, 
including Cuba, Iran, Nicaragua, Syria, Venezuela, not to mention the 
authoritarian former Soviet republics such as Belarus and Tajikistan. 
Others, such as Sunni Arab monarchies, while clashing with Russia over 
Syria, share the regime's oil and gas revenue dependence as a 
distinguishing characteristic. And while former President and current 
Prime Minister, Dmitry Medvedev, and his advisors at least paid lip 
service to individual rights, professing that ``Freedom is better than 
no freedom'' and voicing tentative suggestions for political and 
``economic'' prisoner amnesty, election of Governors and Senators in 
Russia's parliamentary upper house, and lowering of the minimal 
electoral barrier for the Duma to 5 percent, today the state's actions 
speak louder than any words.
    While President Putin was elected last spring with a viable 
majority, some election fraud occurred, especially in the North 
Caucasus. Some Presidential candidates were not allowed to run, and 
those who did had no equal access to television, their funding was 
severely constrained, and the Central Electoral Commission chaired by 
Vladimir Churov, a Putin loyalist, successfully prevented a runoff. 
Today, the legitimacy of the current administration is questioned by 
many in Russia, and increasingly relies on the rural/small town, older, 
less educated, more nationalist and more traditional population, many 
of whom do not care about civil liberties and are deeply suspicious of 
the West.
    It is against this background that we need to view the the 78-page 
report by Human Rights Watch (HRW), ``Laws of Attrition: Crackdown on 
Russia's Civil Society After Putin's Return to the Presidency,'' which 
highlights some of the anti-NGO legislation and tactics that marked the 
return of Putin to the Presidency in May 2012.\1\ This included the 
introduction of a series of law severely restricting civil society, and 
particularly, the activities of NGOs. It also featured the imprisonment 
of a number of political activists, and the characterization of the 
government critics as foreign-supported enemies. The HRW report 
analyzes these new laws, including the so-called ``foreign agents'' 
law, the treason law, and the public demonstration/assembly law, and 
documents how these have been used. The package of new laws and 
government harassment are ``pushing civil society activists to the 
margins of the law,'' notes Hugh Williamson, Europe and Central Asia 
Director at HRW, ``the government crackdown is hurting Russian society 
and harming Russia's international standing.'' \2\ Many of these new 
measurements and activities violate Russia's international human rights 
commitments.
    In today's Russia, draconian limits have been placed on association 
with foreigners and foreign funding. The term ``foreign agents'' 
deliberately hearkens back to the Stalin era, and the law requires 
organizations that receive foreign funding and supposedly engaged in 
any vaguely defined ``political activities'' to register as ``foreign 
agents.'' Another law, adopted in December 2012, essentially bans 
funding from the United States for ``political'' activity by 
nongovernmental organizations, along with groups whose work is 
``directed against Russia's interests.'' Russia also shut down the 
activities of USAID, terminated the successful Nunn-Lugar program to 
dismantle weapons of mass destruction and boost nonproliferation, and 
caused organizations such as the International Republican Institute to 
relocate its staff to Lithuania.
    Yet another recently passed Russian law expands the legal 
definition of treason in such a way that it can be used to criminalize 
involvement in human rights advocacy, including work for international 
organizations. It can also criminalize scientific and business 
activities involving foreigners and Russian citizens, having a chilling 
effect on investment and international cooperation. A recent piece of 
legislation effectively criminalizes unauthorized demonstrations, 
including their preparation, organization, and promotion, by 
establishing jail terms and huge fines for organizers and participants.
    Since the spring of this year, the Russian authorities began a 
nationwide campaign of intrusive government inspections of the offices 
of hundreds of civil organizations. Officials from the prosecutor's 
office, the Justice Ministry, the tax inspectorate, and in some cases 
the antiextremism division of the federal police, the health 
inspectorate, and the fire inspectorate, have descended on the offices 
of election-observation NGO Golfs, Memorial, which is organizing a 
memorial to Stalin's victims, and even some bird sanctuaries and health 
advocacy organizations. The inspection campaign, which began in March 
2013, was prompted by the ``foreign agents'' law.
    Although many organizations have not received their inspection 
results yet, a few received citations for failing to register as 
``foreign agents,'' and others have been fined for fire safety and air 
quality violations and the like. According to Human Rights Watch, 
government inspectors examined each group's tax, financial, 
registration, and other documents. In several cases, they seized 
computers or e-mail. In one case, officials demanded that an 
organization prove that its staff had had been vaccinated for smallpox, 
and in another the officials asked for chest x-rays of staff to ensure 
they did not have tuberculosis. In yet another case, officials demanded 
copies of all speeches made at the group's recent seminars and 
conferences. This is clearly an unwarranted and systematic persecution 
of civic organizations, and particularly, of human rights organizations 
and activists. Such state activity goes beyond acceptable international 
practice and suggests that Russia, while not yet in the ranks of most 
oppressive human rights violators, such as Iran, North Korea, Saudi 
Arabia, and Cuba, is on a very worrisome trajectory.
    While the Russian Government has asserted that these inspections 
are routine, they are clearly not. As Human Rights Watch points out, 
``The campaign is unprecedented in its scope and scale, and seems 
clearly aimed at intimidating and marginalizing civil society groups. 
This inspection campaign can potentially be used to force some groups 
to end advocacy work, or to close them down.''
    Currently, there are several cases of prosecution which suggest 
strong political motivation. These include the Guriev case discussed 
previously; the charges against politicians Alexei Navalny and Boris 
Nemtsov; and the case of the May 6 Bolotnaya Square demonstrators, with 
over 20 accused. Garry Kasparov, a world chess champion and one of the 
leaders of the Russian opposition has announced his forced emigration. 
He is not going back to the country, which he represented in 
international chess battles because he, too, like Guriev, is being 
called to prosecutor's office, which violates dues process and goes out 
of its way to destroy the peaceful opposition in Russia. Vladimir 
Lenin, the founder of the Soviet state, exiled philosophers and other 
scholars by shipload. Today, the state forces its best and brightest, 
like Guriev and Kasparov, to emigrate, while others, like Navalny, are 
threatened with jail and the GULAG camps.
    There are others, such as the matter of Pussy Riot--three female 
punk band members who are incarcerated in labor camps for 2 years for 
allegedly offending the feelings of Christian Orthodox believers when 
their anti-Putin song was performed, admittedly in very bad taste, in 
Moscow's Cathedral of Christ the Savior.
    Thorough investigation and research of these cases by Russian and 
Western experts and journalists demonstrate a lack of regular due 
process, biased judges and prosecutors who disregard the law, 
questionable and underqualified government experts, and the lack of a 
proper appeals process independent of the executive branch and 
politics. As in the Soviet past, judges bow before secret police and 
law enforcement and are enforcers of the political leadership's will. 
Most importantly, it appears that the old Soviet practice of 
``telephone law'' is back, under which the executive authority 
informally and without a paper trail or track record, dictates how 
judges should rule in cases of particular interest.
    While the Putin regime has been ratcheting up the pressure on 
Russian NGOs and civil activities, the Obama administration has toned 
down its protests against lawlessness and the crackdown on civil 
society in Russia. Clearly, there are valid and compelling bilateral 
interests that Washington and Moscow need to pursue, including an 
orderly withdrawal from Afghanistan; antiterrorism cooperation (the 
urgency for which the horrific Boston marathon bombing amply 
demonstrated); the search for a diplomatic settlement to the Syrian 
civil war; further and more effective sanctions on Iran; the challenge 
of rising China; and broadening business relations, especially in the 
energy field. Nevertheless, the U.S. should remain true to its values 
and protect those who seek human dignity and freedom. Speaking up for 
victims of oppression in the Soviet Union and Russia has a glorious 
history which goes back to at least the 1960s, when American Senators 
like ``Scoop'' Jackson passed the Jackson-Vanick amendment. All of us 
fondly remember Daniel Patrick Moynihan, a great critic of Communist 
excesses when he was President Ford's U.N. Ambassador and later the 
Senator from New York. Americans supported Andrey Sakharov, gave refuge 
to Alexander Solzhenitsyn, and marched in the hundreds of thousands on 
behalf of Soviet Jews who yearned to be free to emigrate.
    Some of those who have fallen victim to the more recent crackdown 
are alive: Khodorkovsky, Navalny, the prisoners of the last year's 
Bolotnaya Square protests. Their voices need to be heard. Some are 
dead, like Sergey Magnitsky, Anna Politkovskaya, and Natalia 
Estemirova. The lives, and the reasons for their deaths, need to be 
remembers. Their murderers need to be apprehended and brought to 
justice.
    Russia's civic organizations are in the process of shutting down, 
and one can only hope and pray that darkness won't descend. Without 
groups such as Golos and Memorial, without the Committee of Soldiers' 
Mothers, without a free media, Russia can only become more nationalist, 
more authoritarian, more anti-Western, and more anti-American.
    The Senate, the Presidency the U.S. Government, the U.S. nonprofit 
sector, all need to strike a proper balance between pursuing American 
security, diplomatic, and business interests--and being true to our 
values. We need to make the support of freedom and individual rights in 
Russia, as well as in other places around the world where civil rights 
are violated or people are oppressed, a priority--as well as in this 
country. In our contacts with Russian officials, we need to keep 
bringing up the cases of those whose murderers are unsolved, or who are 
rotting in camps and jails. We may need to revisit the Magnitsky list, 
which the administration went out of its way to minimize. We need to 
use the power of public diplomacy, and especially international 
broadcasting, currently moribund for lack of new technologies and high 
quality content providers, to make the U.S. voice heard in Russia and 
other languages, from Brest to Vladivostok. America needs to make a 
strong case for civic freedoms to the Russian people and to the Russian 
leaders, and it is up to the Kremlin and to the Russian people to allow 
their country to move toward unencumbered political expression, a 
thriving civil society, and away from stagnation and authoritarianism.
    America is capable of global leadership when it believes in itself 
and in its values. We can offer the Russian people so much--in areas 
they need most: to improve their uncompetitive education, abysmal 
health care, and chilling investment climate. 
We can expand space cooperation, energy exploration, and work together 
on much- 
needed infrastructure development in that vast country that covers nine 
time zones.
    Most importantly, U.S. have a wealth of experience to offer in 
legislative policy, court administration and--despite the recent 
scandals--the rule of law. The good will is there, but Russia would 
need an unencumbered nonprofit sector and the rule of law to benefit 
from it.
    It is up to the Russian leadership to rise to the challenge, to 
allow the nonprofit sector to thrive, and to restore cooperation with 
the U.S. The ball is in Moscow's court.

----------------
End Notes

    \1\ ``Laws of Attrition: Crackdown on Russia's Civil Society after 
Putin's Return to the Presidency,'' Human Rights Watch, April 24, 2013, 
http://www.hrw.org/reports/2013/04/24/laws-attrition.
    \2\ Ibid.

    Senator Boxer. Thank you so much.
    And finally, we hear from Boris Nemtsov. In addition to 
being a former Deputy Prime Minister of Russia, he is 
cochairman of what I believe is the opposition party, the 
Republican Party of Russia-People's Freedom Party, and, in 
January 2011, he was sentenced to 15 days in jail after taking 
part in an opposition rally.
    We are very happy to have you here, sir. Please go ahead.

STATEMENT OF HON. BORIS NEMTSOV, COCHAIRMAN OF REPUBLICAN PARTY 
        OF RUSSIA-PEOPLE'S FREEDOM PARTY, MOSCOW, RUSSIA

    Mr. Nemtsov. Well, thank you very much for opportunity to 
be with you today.
    I want to thank you for holding this timely and topical 
hearing and for giving me the opportunity to share my views on 
the situation in Russia.
    I want to tell you that I have a ticket to Moscow today, 
and--100 percent, I will be back, and--but, I think that 
opposition leaders must fight inside the country, not outside.
    With Vladimir Putin's return to the Presidency in May 2012, 
Russia's authoritarian regime has transitioned to a new stage 
of development, from so-called ``sovereign democracy,'' 
characterized by election fraud, media censorship, and the 
harassment of the opposition, to open political repression. 
Critics of Mr. Putin's government, from opposition leaders to 
rank-and-file activists, are being put up for political show 
trials.
    The case of the participants of the May 2012 anti-Putin 
rally, the so-called ``Bolotnaya case,'' the case of 
anticorruption campaigner Alexei Navalny, and the possible 
third criminal case, which Ariel mentioned, against Mikhail 
Khodorkovsky, Russia's most prominent political prisoner, are 
only some of the examples of a rapidly worsening situation.
    Meanwhile, new laws targeting the freedom of assembly, 
expanding the definition of ``treason,'' and labeling NGOs that 
receive funding from abroad as ``foreign agent,'' which, in 
Russian language, is synonymous with ``foreign spies,'' show 
that the regime is no longer satisfied with mere political 
control and seeks to subject society to fear and submission.
    In this context, attempts by some in the West, including in 
the United States, to adopt a realpolitick approach and to 
conduct business as usual with the Putin regime, contradict the 
most basic values of democracy, human rights, and the rule of 
law. Such policy is also counterproductive, since the Kremlin 
considers it as a sign of weakness and, therefore, as an 
invitation to behave even more aggressively, both at home and 
abroad.
    This coming Monday, G8 leaders, including Barack Obama and 
Vladimir Putin, will gather for a summit in Northern Ireland. 
The agenda does not even include any mention of human rights 
abuses in Russia. The G8 is still known as the group of leading 
industrial democracies, which sounds incredibly grotesque, 
given the situation in Russia. It would be more appropriate, 
and more honest, to refer to the group as ``G7 plus Putin.''
    Last year, the U.S. Congress adopted the most pro-Russian 
law in the history of any foreign Parliament, including the 
U.S. Congress. The Magnitsky Act, directed against crooks and 
abusers, finally ends the impunity for those who violate the 
rights and steal the money of Russian citizens. According to a 
recent poll--Russian recent poll--by the Levada Center, 44 
percent of Russian people support the Magnitsky Act, with just 
21 percent against and 35 percent holding no opinion. And this, 
despite the massive Kremlin propaganda against this law.
    Unfortunately, the initial public list of violators that 
was published by the U.S. administration in April includes only 
18 names, none of them high-ranking. Too many of those 
responsible for repression and human rights abuses have been 
let off the hook. This is a great strategic error. I hope that 
it will be corrected in the near future.
    It is our task, the task of Russian citizens, to bring 
about democratic changes in our country. This cannot be done 
from outside. But, if the United States wants to show support 
for the Russian people, the best way to do it is also to 
implement the Magnitsky Act, in full accordance with the 
original intent.
    Thank you very much.
    [The prepared statement of Mr. Nemtsov follows:]

                Prepared Statement of Hon. Boris Nemtsov

    Chairwoman Boxer, Chairman Murphy, Ranking Member Paul, Ranking 
Member Johnson, esteemed members of the committee, I want to thank you 
for holding this timely and topical hearing and for giving me the 
opportunity to share my views on the situation in Russia.
    With Vladimir Putin's return to the Presidency in May 2012, 
Russia's authoritarian regime has transitioned to a new stage of 
development--from the ``sovereign democracy'' characterized by election 
fraud, media censorship, and the harassment of the opposition, to overt 
political repression. Critics of Mr. Putin's government--from 
opposition leaders to rank-and-file activists--are being put up for 
political show trials. The case of the participants of the May 2012 
anti-Putin rally (the so-called ``Bolotnaya case''); the case of 
anticorruption campaigner Alexei Navalny, and the possible third 
criminal case against Mikhail Khodorkovsky, Russia's most prominent 
political prisoner, are only some of the examples of a rapidly 
worsening situation. Meanwhile, new laws targeting the freedom of 
assembly, expanding the definition of ``treason,'' and labeling NGOs 
that receive funding from abroad as ``foreign agents,'' (which in 
Russian is synonymous with ``foreign spies'') show that the regime is 
no longer satisfied with mere political control and seeks to subject 
society to fear and submission.
    In this context, attempts by some in the West, including in the 
United States, to adopt a realpolitik approach and to conduct 
``business as usual'' with the Putin regime contradict the most basic 
values of democracy, human rights and the rule of law. Such policy is 
also counterproductive, since the Kremlin considers it as a sign of 
weakness--and, therefore, as an invitation to behave even more 
aggressively, both at home and abroad.
    This coming Monday, G8 leaders--including Barack Obama and Vladimir 
Putin--will gather for a summit in Northern Ireland. The agenda does 
not include any mention of human rights abuses in Russia. The G8 is 
still known as the group of leading industrialized democracies, which 
sounds increasingly grotesque given the situation in Russia. It would 
be more appropriate to refer to the group as ``G7 plus Putin.''
    Last year, the U.S. Congress adopted the most pro-Russian law in 
the history of any foreign Parliament. The Magnitsky Act, directed 
against crooks and abusers, finally ends the impunity for those who 
violate the rights and steal the money of Russian citizens. According 
to a recent poll by the Levada Center, 44 percent of Russians support 
the Magnitsky Act (with just 21 percent against, and 35 percent holding 
no firm opinion)--and this despite the massive Kremlin propaganda.
    Unfortunately, the initial public list of violators that was 
published by the U.S. administration in April includes only 18 names--
none of them high-ranking. Too many of those responsible for repression 
and human rights abuses have been let off the hook. This is a grave 
strategic error. I hope that it will be corrected in the nearest 
future.
    It is our task--the task of Russian citizens--to bring about 
democratic changes in our country. This cannot be done from outside. 
But if the U.S. wants to show solidarity with the Russian people, the 
best way to do it is to implement the Magnitsky Act in full accordance 
with its original intent.

    Senator Boxer. And thank you for your courage. And I would 
just say, you know, on behalf of all of us, your being here 
helps shine the light on what is happening, and I hope that--
because we now know you and we now know what you face, that, 
when you get back there, you will have respect and not be 
mistreated. And we certainly will follow that very closely.
    I want to start the questions with Mr. Jannuzi. I thought 
you gave us two really important ideas. One is to keep shining 
the light on these abuses, which is always very effective, I 
think. And, second, you said, before the President goes to his 
summit meeting--is it called a summit?--in September----
    Mr. Jannuzi. In September, there will be a summit meeting 
in Moscow.
    Senator Boxer [continuing]. A summit meeting that we need 
to, if we can, put human rights on the agenda, which we have 
learned is not on the agenda. So, what I am going to work with, 
with Senator Johnson, Senator Murphy, Senator Paul, is a 
bipartisan letter that we can send to the administration, 
saying that we are very concerned, and perhaps sending them a 
summary of this hearing, so they can--and we will send that to 
John Kerry, as well. And I think that would be a good way to 
show bipartisan support for putting this on the agenda and not 
letting it be swept under the rug. Do you think that would make 
some sense?
    Mr. Jannuzi. I do, Senator. I've always felt that human 
rights should not be an afterthought in summitry, that human 
rights issues are really integral to everything else the United 
States is trying to accomplish, whether it is with Russia or 
with China or other great powers. And, by signaling that 
intention, I think we put the Russians on notice that we care.
    Senator Boxer. And perhaps it is up to the--I think we will 
talk about it--maybe we will want to see Secretary of State 
Kerry, or at least do a conference call with him, where we can 
underscore this, because one of the things I was struck by, 
both by comments up here and out there, is, you know, we really 
do not know exactly where this is all leading. And it could be 
leading to a horrible place--it is already in a very bad 
place--and may not be. But, 
it is one of those moments when, if there is any thought 
process going on over there, that they need to understand that 
people are watching.
    Ambassador, I wanted to ask you to expand on your 
suggestions to us. You said, ``Congress should remind the 
administration that the Freedom Support Act is still on the 
books, our national commitment to its goals is intact, and, for 
many years, AID oversaw most of the spending that Congress made 
in this area, but AID has ceased to operate in Russia. Congress 
should insist on hearing a credible plan for how the funds it 
has made available are to be spent effectively.''
    Can you give us a sense of--you know, you are saying 
Congress should insist on hearing a credible plan. What would a 
credible plan be, to you, if you had the opportunity to give 
input into that?
    Ambassador Sestanovich. Well, thank you for the opportunity 
to elaborate that point, Senator, because I think resources are 
just as important as letters, and create facts on the ground 
and capabilities in Russian civil society that may not 
otherwise exist.
    AID has had the lead in spending money through a variety of 
organizations that it has supported over the years. I think it 
probably may be in the ballpark, this year, of $40-$50 million 
in democracy-in-governance support. But, that is now an empty 
vessel. AID is closing up shop. And the question is, What will 
happen to that amount of money? where will it go? who will have 
control over it in the U.S. Government? Or are we just going to 
take the fact that AID has been closed down by the Russian 
Government as a reason that the United States Government cannot 
do anything in this area?
    There is a debate going on, in the administration, about 
how to dispose of those funds and who should have control over 
them. And I cannot settle the question for you here, but I 
think the crucial question is whether the United States stays 
interested in this issue and puts resources behind its 
interest.
    There are some people who are saying, really we cannot do 
anything in this area, so we should shift to other activities. 
I think that would be a mistake, for all the reasons----
    Senator Boxer. Well, give me an example. If you were 
sitting in the room, and had--just give us one example. You say 
we should insist on a credible plan. So, I am asking you, 
Assuming we could find someone to execute the plan, what would 
be some of the top ideas you would have?
    Ambassador Sestanovich. Well, as I say, it always matters 
who is able to dispose of the money and what kinds of groups 
can be----
    Senator Boxer. But, I am asking you.
    Ambassador Sestanovich [continuing]. Supported. Yes.
    Senator Boxer. You are an expert. What are your ideas?
    Ambassador Sestanovich. I think there are many different 
organizations in Russia that are worthy of support. My 
copanelists have mentioned environmental groups, have mentioned 
groups interested in public health. But, I would focus on a 
couple that I think are particularly at the interface between 
civil society and politics. And I will give you two. Two kinds 
of activities. I am not going to give you specific donors.
    Senator Boxer. That is fine.
    Ambassador Sestanovich. One involves polling and public 
opinion, the other involves election monitoring.
    The Russian Government has tried to create the idea that 
these are political activities, and that any groups involved in 
these activities are political actors, as though people who 
count the ballots in an election are engaged in political 
activity instead of creating a fair playing field. So, polling 
groups and election monitors have come under particular 
pressure. These are critical functions. And whatever the 
mechanism that we pursue for supporting activities of that 
kind, we should----
    Senator Boxer. Well, that is very----
    Ambassador Sestanovich [continuing]. Definitely take----
    Senator Boxer [continuing]. That is very helpful. And I saw 
Mr. Jannuzi shaking his head yes, and I saw Mr. Cohen----
    Mr. Jannuzi. Just strong affirmation.
    Senator Boxer. So, that would be the strong affirmation.
    And, Mr. Cohen, do you agree with that idea, about polling 
and that--but, you shook your head when he said ``environmental 
groups.'' I saw that.
    Mr. Jannuzi. Yes.
    Senator Boxer. Mr. Cohen.
    Mr. Cohen. Yes. I think the battlefield today is not in 
health care. I witnessed, during the Obama administration--
Secretary Clinton came and opened civil society, Congress here, 
and it was inundated with health care and other 
noncontroversial----
    Senator Boxer. Yes.
    Mr. Cohen [continuing]. U.S.-supported, taxpayer-supported 
activities. It did not work. The crackdown on American civil 
society activities came after that, not before that.
    So, this--I do not want to use a word like ``appeasement,'' 
but it did not work, and the battlefield is in what my 
colleague Steve Sestanovich said: transparency. Clear--clean 
elections----
    Senator Boxer. Good.
    Mr. Cohen [continuing]. Clean politics, whistleblowing. 
Alexei Navalny is facing five criminal cases. Alexei Navalny is 
the leading whistleblower in Russia. So, yes, we should 
support, we should focus, but, no, we should not shy from the 
battle.
    Thank you.
    Senator Boxer. Thank you.
    My time is up, so I am going to turn to Senator Johnson.
    Senator Johnson. Thank you, Madam Chair.
    And, by the way, I would fully support an effort to, you 
know, put a letter together prior to the summit. And from my 
standpoint, I would personally call on members of this 
distinguished panel to provide me the input, provide this panel 
the input, this committee the input, on what the prioritized 
listing of issues we should put in the letter, as well as the 
individuals that we should call out, the people of courage, 
like Mr. Nemtsov, you know, to make sure that the Russians know 
that we are watching and, you know, we want to make sure that 
these people are treated with human dignity and respect.
    Two people mentioned the Magnitsky List, that we only have 
18 individuals listed on that. Without naming the people, I 
would like to know who--you know, I would also like to know 
your version of who should be on the list, but can you tell us 
how many people should be on that list? Should it be thousands, 
should it be hundreds? I mean, what--to have main effect.
    Mr. Cohen, you mentioned it.
    Mr. Cohen. Thank you, Senator.
    On a case-by-case basis, and with examination of proper 
evidence, I would say there should be a process that selects 
these individuals. I will not venture a number right now. I 
think you have to look at who was involved in what kind of 
activities. And the language of the law does not limit it to 
the case of the late Sergei Magnitsky. The language of the law 
expands the scope of the law to address systematic, gross 
violations of human rights and economic activities that stem 
from those abuses. And with this criteria, these individuals 
should be evaluated and then entered into the list.
    Senator Johnson. Well, obviously, this administration did 
not follow criteria to add enough people, according to you 
folks, or at least a couple of you, in terms of people on that 
list. So, what should be the process? I mean, is that something 
you could also feed into this committee, in terms of who should 
be on that list?
    Mr. Aron, would you like to----
    Mr. Aron. Well, I actually defer to Boris Nemtsov.
    Senator Johnson. Okay.
    Mr. Aron. I think he is the best expert on this.
    Senator Johnson. Mr. Nemtsov.
    Mr. Nemtsov. Well, first of all, I want to tell that the 
administration has already got a lot of names, which was 
prepared by a human rights organization from Russia and from 
the United States. My understanding is that they do not want to 
be serious, as far as this list is concerned. They want to be 
very cautious, because they are afraid of Putin disappointment 
and his aggression, et cetera, et cetera. I think that this is 
great mistake----
    Senator Johnson. So, how many people are on that list?
    Mr. Nemtsov. Well, I want to tell you that there are 
several lists which were prepared by NGO. One is very short, 
about 13 names; another looks bigger, about 200 names. I do not 
think that you must think about an amount of names; I think 
that most important thing, like Ariel said, and that is that 
people who are responsible for violation of law, people who are 
responsible for political repression in Russia, must be 
included, nevertheless what there is a relationship between 
these guys and Putin.
    Senator Johnson. Okay. So, you want the right names on the 
list, as do I, so I would like to work with you, in terms of 
getting those people on that list.
    Let me talk a little bit about--or, I would like to get 
your input on the effect of the reset, or, even more so, the 
effect on U.S. policy, or lack of policy, in terms of 
emboldening Putin. I am exactly sure who I should ask that 
question to, so whoever--it looks like--you know, whoever wants 
to answer that. What is that effect, in terms of, really, the 
deteriorating civil society in Russia? America's lack of 
leadership.
    Mr. Aron.
    Mr. Aron. Well, I think--you know, depending on who you 
speak to, the reset had either very specific goals or very 
broad goals. I think it was oversold as a kind of, you know, 
broader coincidence of values in some areas. Others were more 
realistic about it and felt that this is just about arms 
control.
    Now, this administration continues to pursue another arms 
control--or, I should say, arms reduction agreement with 
Russia. It pursues it, I think, with a great deal of zeal, thus 
giving, I think, the Kremlin what they at least interpret as 
the ability to manipulate the relationship because the 
administration wants an arms control deal. This is something to 
watch for. This is not the cold war, this is not the Soviet 
Union. The pursuit of arms control cannot be a be-all and an 
excuse-all kind of policy. And I think this is where, not just 
a reset, but the broader structure of our relationship needs to 
be somewhat corrected.
    Senator Johnson. Mr. Sestanovich.
    Ambassador Sestanovich. Senator, I think there are pluses 
and minuses to their reset record. And one could go through, 
issue by issue, and evaluate them. But, if the question is, 
``Did something in the reset trigger Putin's repression?'' I 
would give you a different answer. I would say the calculation 
that Putin made was based primarily on the appearance, 
unexpected for him, of an amazing degree of popular opposition 
and the readiness of people in Moscow and other cities across 
Russia to go into the streets and demonstrate against electoral 
fraud, against him. That challenge is one that I think he would 
have responded to, in the way that he has, no matter what kind 
of Russian-American relationship you created.
    Senator Johnson. Okay.
    Ambassador Sestanovich. Because his instincts are what they 
are.
    Senator Johnson. Thank you.
    Ambassador Sestanovich. He is----
    Senator Johnson. I am running out of time, and I want to 
get to one conflict that I heard.
    Mr. Sestanovich, you said we need to stay out of Russia. 
Mr. Jannuzi, you said we need to shine the spotlight. Are those 
mutually exclusively? Or--you know, I just kind of wanted to 
get that--I think spotlight's good, but in what----
    Mr. Jannuzi. Senator, I think I can square that circle.
    The strongest proponents of human rights--basic rights, 
civil rights--in the world do not live along the banks of the 
Potomac, they live along the banks of the Volga, the Amur, and 
other rivers, you know, in Russia. And by shining a spotlight 
on their efforts, by supporting, both rhetorically and, as 
Ambassador Sestanovich has said, to the extent we are able, 
through training initiatives and civil society promotion, 
activities, supporting their efforts, we are not intruding into 
the decisionmaking of the Russian people; we are helping them 
have the tools they need to make those decisions for themselves 
in a more democratic, open, and transparent way. And so, I 
believe that we can do both.
    Senator Johnson. Mr. Cohen, you raised your hand, there.
    Mr. Cohen. We, at the Heritage Foundation, documented the 
failure of the reset policy. I can point out one success, and 
that is cooperation on the United States transportation network 
into Afghanistan, and now out of Afghanistan. Other than that: 
Syria, missile defense; Iran, terrorism. It did not work. In 
case of antiterrorism cooperation, it did not work well enough. 
To wit, Boston.
    I think that the issues at hand--civil society, human 
rights--should remain on the table. It is our national security 
interest--it was so since Jimmy Carter, since Ronald Reagan--
that Russia will move into the direction of freedom, civil 
society, and cooperation. The more Russia goes there, the 
better it is for the Russian people. They are talking about 
lack of sustainability of the current economic model that is 
based on oil and gas. Well, you develop your non-natural 
resources economy by having a freer society, by having your 
elites staying in Russia, living in Russia, working in Russia, 
and creating wealth there and not in New York, although I am 
not against the fact that they are contributing to the welfare 
and prosperity of this great country.
    Thank you.
    Senator Johnson. Thank you, Mr. Cohen.
    I guess I will turn it over to the new chair.
    Senator Murphy. Thank you, Senator Johnson.
    I wanted to further explore the comment that Ambassador 
Sestanovich raised, which is that Putin's turn toward 
repression comes from a fear of a changing level of opposition 
from the Russian people. And I guess I will start with Mr. 
Nemtsov with this question. I would love your thoughts, and 
then others, as to the status of popular opinion in Russia 
today with respect to this level of oppression. We saw a high 
level of organized unrests in 2011, in 2012. We have not seen 
as much organized protest and unrest this year as we have in 
previous years. And I guess the simple question, to start with 
you, Mr. Nemtsov, and then others want to chime in, is, Is this 
because the tactics have succeeded and there is a similar 
amount of opposition to Putin today than there has been in the 
past, and people just feel like they cannot express that? Or is 
there less interest than we might otherwise think amongst the 
Russian people in this new series of oppressive and repressive 
tactics?
    Mr. Nemtsov. Well, first of all, Putin lost, after the 
election--after the election of 2012--he lost more than 10 
percent. Secondly, in authoritarian country, public opinion is 
very strange thing, because public opinion formed by TV, 
mainly, in Russia--more than 65 percent of Russians get 
information from TV, not from Internet. And TV is under 100 
percent of Putin control. That is why, for example, Russian 
people do not like America--not because they think that this is 
devil empire, but because Putin TV show that this is our enemy. 
That is it. That is why this is manipulation, this is not 
public opinion, in democratic understanding point of view.
    Well, people are tired of him. People know that he is a 
leader of corruption team. People know that he is very rich. 
Very rich, not because of his incomes, but because of 
corruption scheme, et cetera, et cetera. People know that there 
is new oligarchy team around him, including KGB guys, et 
cetera. That is why I think that his popularity is going down 
and down.
    As far as protest is concerned, your second question, I am 
one of the organizer of rally and demonstrations from 2011. 
What the main problem. Yes, it was, yesterday, a good 
demonstration, with more than 20,000 of people on the streets, 
which is good, with this main slogan, ``Freedom for political 
prisoners and for free Russia and for democratic Russia,'' 
which is great, but people want to get results immediately. 
They believe that if we came to the street with 100,000 of 
people, Putin will disappear in 1 second. This is Russian 
tradition: to get result immediately. You know, if you--if you 
explain, them, ``Guys, this guy control 600 billion U.S. 
dollars in reserves,'' he is one of the richest men in the 
world, and he is very much afraid to be in jail, and he is 
ready to use every opportunity to keep his power, and I do not 
think that one peaceful rally is enough--it is very unpopular 
idea, but this is realistic.
    That is why we must continue, I am 100 percent sure, 
because peaceful protest is an only way for Russia. Russia has 
terrible history of bloody revolutions, with terrible results. 
That is why our absolutely clear choice is to continue, but 
peaceful protest.
    Senator Murphy. Let me just see if there are any other 
quick thoughts on the status of public opinion.
    Mr. Jannuzi. Senator, we do not have good polling data, but 
we know that, since Putin was inaugurated last year, more than 
5,100 people have been arrested. This is having a chilling 
effect on their willingness to come out in the streets. And the 
fact that there were 10- to 15- or 20,000 people in the streets 
of Moscow yesterday, 
the day after the Duma had passed new restrictive laws, 
suggests 
that there is a significant amount of unrest and unhappiness. 
More information on this is available at our infographic at 
AmnestyUSA.org. And we do not see a diminution in the 
willingness of the Russian people to step up and criticize 
their government. But, the size of the protests is being 
reduced, out of fear.
    Senator Murphy. All right.
    Mr. Cohen.
    Mr. Cohen. From my sense--I am a lapsed lawyer, and one of 
the few things that I am dragging from my legal past is 
engagement in writing about the Russian Constitution. I spoke 
in Russia, in Yekaterinburg, about that. And what Russian 
Constitution provides--I think, mistakenly--is that the 
Presidency is above the three branches of government. Well, 
ladies and gentlemen, I am sorry to say, the Presidency in 
Russia, de facto, is the executive branch and is very 
politicized. The Russian Constitution says that the President 
of Russia is a guarantor of the constitution. Since 2011, Mr. 
Putin is no longer guarantor of the constitution. Maybe even 
from before that. Mr. Putin is a part of a political struggle 
in Russia. He is a political actor. And he, as such, today, 
unfortunately for him, lost control of the Russian elites. 
Today, in every poll that you see of people who are under 45, 
urban, and educated, Mr. Putin's party, United Russia, is not 
getting the majority. And his popularity is not growing. It 
used to be very high. It used to be in the 75-percent range. 
Not among the elites anymore.
    So, what is he doing? He is doing what any politician is 
doing: disregarding the Russian Constitution and being the 
guarantor and above the branches--the three branches of 
government, because, between us, this is basically, a 
description of a czar. He is shifting his political base to 
less educated, more urban and small town, and older. And that 
is part of the explanation for the crackdown, for this policy 
that is pulling Russia back into the past, into this populism 
and disregard to the rule of law.
    Senator Murphy. I will save my second few questions for the 
second round. Maybe we will go back to Senator Johnson now, and 
then, now that Senator McCain has joined, we will give him a 
chance to take a breath and ask questions after Senator 
Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I just want to follow up, really, on the flow of 
information into Russia. Mr. Nemtsov, you talked about 60 or 65 
percent of the information Russians get is from Russian TV, and 
yet we have a fair amount of real information coming in there, 
to the extent where you have got the elite that are against 
Putin. Where are they getting it from? How free is the 
Internet? You know, how restricted is it?
    Mr. Nemtsov. Well, Internet is relatively free. Comparing, 
first of all, with China or Belarus or Iran and some other 
countries, it looks free, except maybe the most powerful Web 
sites, like Yandex--this is Russian Google--like Mail.ru, like 
some others. But, we have an opportunity to use Twitter, 
Facebook, to use LiveJournal, some other Web sites.
    But, I want to tell you that Internet is not targeting 
information resource, because you can get, in Internet, all of 
the information, from freshest, you know, to pornographia. You 
can get everything you want. If you look at TV--why TV is so 
influential and why this is so powerful--because this is 
absolutely targeting resource, ``Putin is good. McCain is 
disaster.'' That is it. [Laughter.]
    Senator Johnson. No offense, Senator. [Laughter.]
    Mr. Nemtsov. Well, it is very clear message----
    Senator Johnson. Welcome to the hearing.
    Mr. Nemtsov. Yes. [Laughter.]
    Mr. Nemtsov. Very clear message. But very targeted, right? 
Every day, from the morning to the dark, ``I am a hero, I am a 
patriot, America is our main enemy, while our Russian 
opposition, all of them, are American spies,'' including me, of 
course, while--that is it. And every day. If you look at 
Internet, you get different information, free.
    Senator Johnson. So, we certainly do understand the power 
of mainstream media, here. But, what is--what is the power--I 
will ask somebody else on the panel--What is the power of the 
alternate information? As well as--I also want to tack on this 
question, too, is--What is the prospect of relatively free and 
fair elections? I mean, how unfair are they? How easy is it for 
Putin to steal those, time and time again?
    Mr. Nemtsov. Let me--well----
    Senator Johnson. Okay.
    Mr. Nemtsov. I know an answer. We do not have elections. We 
have special operation, always.
    One example. Election--mayor election in Moscow City, the 
biggest city in Russia, the most opposition city, and the most 
well-educated city, with concentration of money, with a budget 
like in New York City. Well, they decided to organize these 
elections, just few days ago, with Putin, because of summer 
vacations and because of great pressure to Alexei Navalny, who 
is one of the candidate--he wants to take part--and because 
they are very afraid of Mikhail Prokhorov, Russian billionaire 
who wanted to take part. But, they--specially for Prokhorov, 
they adopted a law that all of the money and the assets must be 
in the country, even if you are just candidate. To Prokhorov, 
it means that Brooklyn Mets basketball team must be in Moscow 
in one week----
    Senator Johnson. Right.
    Mr. Nemtsov [continuing]. Because he is an owner of this 
basketball----
    Senator Johnson. So, you are really describing----
    Mr. Nemtsov. That is why--you know, they--they separate 
everybody. This----
    Senator Johnson. Right.
    Mr. Nemtsov. Do you think that this is elections? And, as 
far as Navalny is concerned, you know, he face five criminal 
cases against him.
    Senator Johnson. So, they are certainly not fair elections, 
but, again, when he gets right down to balloting, if there was 
more free flow of information, if they--if they were not able 
to rig, you know, the timing of them so there is absolutely no 
chance for the opposition to be known and to get traction 
within the public, is there a prospect for the actual election 
to be--represent what people are actually voting, or is it--
they are always stolen?
    Mr. Cohen.
    Mr. Cohen. It is a matter of demographics. The demographics 
of, I would say, 45 or 50, and up, which is still a big 
demographic, get their information from TV. TV channels are 
controlled by the state, one way or another. But, I would like 
to focus your attention on what we are doing or not doing--
rather, not doing--with American international broadcasting.
    International broadcasting helped us to win the cold war. I 
am proud to be part of the Radio Liberty research that was a 
part of that. Today, we are not doing that anymore. We are not 
doing that vis-a-vis Russia, we are doing--barely doing it vis-
a-vis Iran, we do not have successful and widely popular media 
in the Arab world. And I am just not a specialist in China, so 
I--it is hard for me to compare.
    We are in a different media world, we are in a different 
media environment, but I do not see the same fervor, the same 
impact, the same technology, and the same content that we 
managed, together with Russian emigres, together with prominent 
Russian intellectuals at the time, to generate. And I do 
believe that it was American public broadcasting that helped us 
to bring communism down, and that there is no reason why we 
cannot promote the cause of freedom today in the Muslim world 
and in nonfree societies.
    Senator Johnson. Mr. Jannuzi.
    Mr. Jannuzi. Senator, as important as information is--and I 
agree, very much, that access to accurate information is 
essential for an informed electorate--the problem in Russia has 
more to do with the ability to speak truth to power once you 
know that truth. It is about freedom of speech, freedom of 
assembly, freedom of association. So, information, great, I am 
all for it. But, what we really need is to be focusing on the 
defenders of the civic space in Russia.
    Senator Johnson. Right. But, again, you do not have the 
civil rights, so is it possible to broadcast that through the 
Internet, through things like Radio Free Europe, I mean, those 
types of levers that we used to, you know, wield far better, 
here in the United States, than what we are apparently doing 
today?
    Mr. Jannuzi. I think the passion and the activism is in 
Russia now. We do not need to ignite it through broadcasting. 
We need to stand with those who are attempting to wield their 
power.
    Women like Sapiyat Magomedova, she is a human rights 
defender in Dagestan. She goes after police who use violence 
against those who they are supposed to be protecting. But, she, 
herself, as a human rights defender and lawyer, is now coming 
under death threats and scrutiny from the authorities.
    Senator Johnson. So, we should put her in our letter.
    Mr. Jannuzi. We should put her in our letter, and we will 
help you do that, Senator.
    Senator Johnson. Okay.
    Ambassador Sestanovich. Okay. Can I add one thing that--to 
follow up on what Frank has said? There is no doubt that the 
impact of the new legislation about foreign funding is having 
an impact on civil society groups. They are finding it harder 
to operate. Their budgets are under pressure. And the question 
for them is going to be how much foreign donors are actually 
pulling back from supporting them, which is why I suggested 
that Congress should take a look at reviving the United States-
Russia civil society fund, from a year and a half ago, that the 
administration proposed. We have not yet seen the real 
contraction of activities by NGOs in Russia. But, that is 
coming, because they are under a lot of pressure, and they are 
finding it difficult to keep the resources.
    So far, nobody has been convicted under this law, but that 
may come, too.
    Senator Johnson. The threat is there.
    Okay, I just want to say thank you all. This has been, I 
think, enormously helpful, certainly to me. I could sit here 
and ask questions for hours, and maybe we should be convening 
that type of panel.
    But, thank you, Mr. Chairman.
    Senator Murphy. Thank you.
    Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman. I share your 
comment, there, that these are five of the most respected 
people I know, in America, that have spent, literally, their 
careers, four of them, in behalf of human rights. And Mr. 
Nemtsov has obviously been on the front line in his efforts to 
bring democracy back to Russia.
    I would like to ask the panel about the Magnitsky Act. I 
would like to know its effect in Russia, whether it has been 
implemented in the manner which we had hoped it would be, as 
far as the number of people who would have been affected by it. 
And, third of all, do you believe that we should make the 
Magnitsky Act a global act from--there's many--you know, we 
went through a debate, when we passed this, to whether it 
should be global or just Russia-specific.
    So, Mr. Jannuzi, maybe I could begin with you, and we will 
go down the line.
    Mr. Jannuzi. Senator, I am hamstrung by the fact that the 
Amnesty International organization, because of a skepticism of 
the use of sanctions, took no position on the Magnitsky Act, 
but we strongly believe that, if you are going to have it, you 
ought to use it wisely. And that means that you need to be 
looking at the list--not only should it be accurate, but it 
should be calibrated to your political objectives. That list 
could be populated with hundreds of names, if you wanted to, 
based on the criteria of the law. I do not think anyone has 
that intention.
    But, if your goal is to send that message to the 
decisionmakers in Russia about our commitment to human rights 
and our hope that they will embrace those rights, as well, then 
you need to calibrate the list politically. It is a political 
decision, how many names and which names you put on there.
    Senator McCain. And its effect in Russia?
    Mr. Jannuzi. It has pissed off President Putin greatly. 
[Laughter.]
    We got his attention. Once you have his attention, there 
has to be engagement if there is going to be progress. That is 
why we are calling for President Obama to put human rights 
prominently on the agenda of his summit meeting with President 
Putin in September. He should raise human rights, both 
privately and publicly, at other opportunities, including a 1-
hour meet-and-greet that he has with President Putin in 
Iceland. If he raises these issues consistently at a time when 
we have their attention, he is more likely to get a good 
listening.
    Senator McCain. Mr. Aron.
    Mr. Aron. Yes. Senator, I think sometimes we have to look, 
not just at the nitty-gritty of stuff, but at symbols. We now 
know, from the memoirs of the prisoners of conscience in the 
Soviet Union, including Anatoly, now Nathan, Shcharansky, about 
the enormous effect of the ``Evil Empire'' speech by Ronald 
Reagan, of the ``Bring down that wall, Mr. President--Mr. 
General Secretary.''
    The effects may not be immediate, but, I think, apart from 
the punishment of what is known in Russia's crooks and 
swindlers, and the repression, I think the enormous impact of 
the Magnitsky Act is precisely in showing the solidarity with 
that quest for democratic citizenship, of which I spoke before.
    I think the effect is on the urban, younger generation, 
whom, by the way, Putin lost, I mean, by every public-opinion 
poll--the future of Russia is not with his constituency. And 
therefore, you know, this has been a fairly gloomy session, 
but, short term, things are very bleak. I think--even in the 
medium term--I think we ought to be hopeful.
    But, this expression of solidarity is extremely important, 
and I think the--again, apart from the specific names on that 
list, I would--any continuation--any continuation of attention 
to the Magnitsky Act and the Magnitsky process, I hope--I think 
is going to be, long term and even medium term, of enormous 
symbolic importance for those who strive for democracy and 
human rights in Russia.
    Senator McCain. Do you share Mr. Jannuzi's view of Mr. 
Putin's reaction? [Laughter.]
    Mr. Aron. I think all kinds of acts were involved, yes. Not 
just the one that he mentioned.
    Ambassador Sestanovich. Senator, I think the effect of the 
Magnitsky bill has been primarily symbolic. Symbolism is good. 
It symbolizes American commitment and interest in the rule of 
law in Russia. But, beyond the symbolism, I think the effect, 
for many members of the Russian elite, has been relief. That 
is, they are coming to understand that the reach of this act is 
relatively limited.
    Senator McCain. Only because of its interpretation.
    Ambassador Sestanovich. Well, not exclusively because of 
its interpretation. The law says that the people on the list 
are those who are guilty of gross violations of human rights, 
and it gives two examples: killing and torture. So, that is 
going to limit the reach of the act.
    I think you need--whatever--however you apply the Magnitsky 
Act, you need other elements of a modern policy to demonstrate 
American commitment to human rights and to put resources behind 
it.
    So, symbolism, by itself, is good. It is not the only 
element of American strategy.
    Senator McCain. But, a step in the right direction.
    Mr. Cohen.
    Mr. Cohen. Senator, I think that the Magnitsky Act was used 
and abused by the Russian leadership, up to and including 
punishing orphans that were supposed to be adopted by American 
families, who would give them, not only warm homes, but medical 
care that they desperately needed. One of these orphans already 
died, according to the Russian media. So, the punishment of the 
orphans, the punishment of civil society, the slew of 
legislation, the crackdown, this was the message to us that we 
created, supposedly, more damage by promulgating the Magnitsky 
Act than what happened.
    I do believe that we need to revisit the act. We need to 
see who falls into the scope of the act, and possibly expand 
it. This is not my decision; this is above my pay grade. This 
is your decision, Senators.
    Senator McCain. But, we value your advice.
    Mr. Cohen. And I will be happy to provide the advice, of 
course, as will my colleagues. However, you asked a trillion-
ruble question, Senator, Should it be expanded? And I would 
say, ``Yes,'' with caution, because we have our foreign policy 
priorities that influence these kind of decisions. And I think, 
if you look at the Reagan era, how Ronald Reagan used human 
rights agenda and the bully pulpit at the same time, promoting 
rapprochement with Gorbachev because he could have 
rapprochement with Gorbachev. So, in very sensitive cases--you 
look at a Saudi Arabia or a Bahrain--what do you do? At the 
same time, you would--I can see a Magnitsky Act for Iran, 
easily, because that regime is involved in gross violations of 
human rights, day in and day out.
    So, this is a foreign policy and national security matter, 
as well as a human rights matter. But, yes, the Magnitsky Act 
should be a blueprint and a model for America to stand for what 
we are.
    Thank you.
    Senator McCain. Thank you.
    Mr. Nemtsov, it is always a pleasure to see you.
    Mr. Nemtsov. Yes, thank you very much, Senator.
    Senator McCain. You not only inform, but you entertain. 
[Laughter.]
    Mr. Nemtsov. Well, first of all, I want to tell you that 
Magnitsky Act for Europe is absolutely crucial, even more 
important to come back to human rights and rule of law in 
Russia than American Magnitsky Act, because corrupted 
bureaucrats around Putin, they mainly spend vacations and send 
their kids to European universities, they have accounts, not in 
American, but Swiss, banks, they relax in the south of France, 
et cetera. That is why the response from Kremlin is terrible, 
as far as European opportunity for Magnitsky is concerned.
    The last example of Irish Parliament discussion about 
Magnitsky Act was said--you know, that Russian Ambassador in 
Ireland sent a letter, to every deputies in Irish Parliament, 
that, ``Guys, be careful. If you vote for Magnitsky in Ireland, 
we stop adoption.'' Stop adoption for kids, right? And a few 
hundred families--Irish families--press, deputies, and ask 
them, do not vote for that. It does not happen. Another 
opportunity is to use gas--I mean, Gazprom, et cetera--like a 
tool, to stop this Magnitsky. Well--but this is very important.
    Second, I believe that Magnitsky Act is very, very pro-
Russian law, because this is replacement of sanctions from the 
state--sanctions against the state to sanctions against 
corrupted and criminals, which is good. And Russian people, 
nevertheless what has happened on Putin TV, they understand 
that it is not against ordinary Russian people, this is against 
corrupted, murders, terrible guys.
    And, last point, I believe that we will forget about 
Magnitsky Act when we come back to independent justice in 
Russia, because if we have independent court, why do you need 
some acts outside? If you are criminal, you will be in jail. 
That is it. But, this is not for Putin Russia.
    Well, as far as list is concerned, I do not agree that this 
is like a symbolic. I do not think so. For example, there are 
some names, including friends of Putin, who are responsible for 
political repression, and our guys from an investigative 
committee, for example, or people who made the decision 
concerning Mikhail Khodorkovsky, right? Well, I think that, if 
such guys, we would be, in the least, not low profile guys, but 
serious guys--I think that this is not symbolic. This is a 
system. System based on corrupted person who are absolutely out 
of control. But, if they appear in this list, and the 
Europeans, for example, bomb the--them just--a visa, it will be 
the end of the story, believe me.
    Senator McCain. I thank you.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you, Senator McCain.
    Mr. Sestanovich, I wanted to come back to this idea of the 
United States-Russian civil society fund. So, we are dealing 
with the ongoing persecution of NGOs. The Russians are acutely 
looking to see which of those we are funding. USAID has had to 
leave. How do you thread this needle? I mean, if we create a 
new fund that is funding NGOs, does not that essentially become 
a red, blinking light for Putin to watch for as he tries to 
figure out which NGOs to shut down? And, in this context, how 
do you do transparent, open support from the U.S. Government or 
from a civil society fund to NGOs, when that will just become a 
big advertisement for Putin as to who he should go after?
    Ambassador Sestanovich. Senator, it is a good question. I 
am a member of the board of the National Endowment for 
Democracy, I should say, at the beginning. So, the favorable 
things I am going to say about NED's record should be heard 
with that in mind.
    I think, even if you had not had this wave of repression in 
the past year in Russia, there are reasons to doubt the 
effectiveness of AID as a dispenser of assistance to civil 
society. It made it a government-to-government irritant. It 
involved an awful lot of bureaucratic overhead in Washington, a 
lot of inflexibility, slow moving. The National Endowment has a 
different track record and different mode, which is to operate 
with smaller grants, with a lot more flexibility, more rapid 
lead times, and has had an ability to support a lot of groups 
that would not have been able to benefit from AID's approaches.
    The civil society fund that I mentioned could be 
administered by an organization like the NED. And I think you'd 
have some significant benefits in doing that.
    Would the Russian Government dislike that reality? Yes. No 
question about it. But, the Russian Government is on weak 
ground, internationally, in trying to repress support for civil 
society. They are really isolated, in terms of international 
norms, and this is going to have to be an issue that we, and 
other like-minded countries, challenge them on. It is going to 
be a disagreement. We do not have to shy away from that.
    Senator Murphy. Mr. Nemtsov, we are going to all be 
watching the Navalny trial with great interest to see what it 
suggests about the lines that are going to be drawn, in terms 
of political prosecutions. I want to ask you a very simple 
question that you have answered privately, and ask you to 
answer it here.
    Why are you not on trial today? And what does that say 
about the lines that are being drawn today, in terms of who is 
prosecuted and who is not? And is there any hope, in the fact 
that you are able to sit here today and testify in front of 
this committee and go back, later today, to Russia to continue 
your activities?
    Mr. Nemtsov. Well, this is the most popular question to me 
everywhere in the world, including America.
    Well, I think that the best way is to ask this question to 
Putin, not to me, because he is responsible for jail, not me. 
Well, it is a first-second. I think that, when I was in jail, I 
want to tell you that it was huge response from the world, 
including the U.S. Senate, including Mr. McCain, including Mr. 
Cardin, including a lot of officials here and in Strasbourg, in 
Brussels. For Putin, it will be very difficult to explain that 
I am a criminal. It is very difficult. Of course, his 
investigative groups investigate--has already investigated all 
of my business before, and tried to find something. I am sure 
that if they will be successful, I'm not be here. Well, but 
they worked, hard, every day.
    Well, next point, he is not Stalin. He is a combination of 
Stalin and Abramovich, oligarch, billionaire, to relax, to be 
recognized, et cetera. To organize absolutely clear political 
case--the case against me is 100 percent political. Everybody 
understand that. This is not even Khodorkovsky, because 
Khodorkovsky was the average guy, he took part in 
privatization, he took part in the shares-for-loans scheme, et 
cetera, et cetera. That is why, to explain, the world, that he 
is not because of politics, but he is because of no taxation, 
et cetera, it is easy. With me, to explain that I am the cause 
of taxation, is in jail, it is impossible, right?
    Well, and he believes that criminal cases against Navalny 
is a sign to every opposition leaders to be quiet. To emigrate 
or to sit still. And he believe that if he will push Navalny, 
the rest will be relaxed and be great, to repeat the experience 
of Guriev and Kasparov----
    Senator Murphy. Right.
    Mr. Nemtsov [continuing]. And that's it.
    Senator Murphy. Right.
    Mr. Nemtsov. But, he is not right. I want to tell you that 
we will continue our fight.
    Senator Murphy. Good.
    Senator Johnson and I have both done second rounds. Senator 
McCain, anything further?
    Senator McCain. No, I just want to thank all of the 
witnesses for their continued advocacy for democracy, not only 
in Russia, but especially in Russia. Your voices are well 
respected.
    And, Mr. Jannuzi, I understand that you cannot take a 
position on some of these issues, but I also think that some of 
your public activities have been very helpful on behalf of the 
oppressed.
    And, Boris, I am not quite as optimistic about--Boris, pay 
attention----
    [Laughter.]
    Mr. Nemtsov. Excuse me. I explain what is happening. I have 
my flight at 3 o'clock. That is why I----
    Senator McCain. All right. I just want to say I am not 
quite as optimistic about----
    Mr. Nemtsov [continuing]. If I will be here, it will be 
great signal for Putin, you know. [Laughter.]
    That is why the best way for me to leave now.
    Senator McCain. I just want you to be careful, because I am 
not quite as optimistic as you are about Mr. Putin's desire to 
stifle opposition. So, you will be in our thoughts and our 
prayers as you continue your activities.
    And I thank the other three witnesses. I read them all the 
time. It is nice to see you in person.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you, Senator McCain. We will get Mr. 
Nemtsov to his flights.
    Thank you, to all five of you. As you have heard, we are 
very interested in following up with some communication to the 
President that we will work with you on.
    Senator Murphy. And, with that, our hearing is adjourned.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Pussy Riot Collective Statement Submitted by Senator Barbara Boxer

    Last week, members of our collective, Pussy Riot, visited 
Washington, DC, to meet with the U.S. State Department and Members of 
Congress who might help release two of our friends, Maria Alyokhina and 
Nadezhda Tolokonnikova, who are imprisoned in penal colonies in Russia, 
for the crime of hooliganism motivated by religious hatred.
    They have been sentenced to 2 years in prison as extremists, 
receiving harsh punishments like vicious neo-Nazis and 
ultranationalists responsible for hate crimes against ethnic 
minorities, and are serving time alongside violent criminals, including 
murderers.
    Our friends are mothers with small children. They are artists who 
are expressing our social and political views. Nothing more.
    We are a collective of women active in feminist, LGBT, 
environmental, and other causes in Russia. We formed in advance of 
Vladimir Putin's return to the Presidency, which has been marred by 
deteriorating human rights conditions in Russia.
    Our band stands for many freedoms, including our feminist values. 
These are values that directly contradict the culture of the ``macho 
man,'' led by Vladimir Putin that marginalizes women and degrades our 
role in society.
    Many Russians did not pay attention to politics, but by 2011 they 
saw an arrogance in Putin, and it has activated people, many of whom 
have taken to the streets in protest. It activated us too. And for our 
protests, two of us were carted off to a penal colony, as violent 
criminals. The Russian Government is attempting to use all the 
institutions at its power--courts, the Duma, church--to suppress 
dissent.
    We are but one example of dissenters who have been charged with 
crimes since Vladimir Putin's inauguration.
    We urge the United States to take notice of what is happening in 
Russia, of how we are slipping backwards, not toward progress, but 
toward repression. We ask you, members of the Senate, to work for the 
release of our friends who aren't hooligans or criminals, but women who 
have strong views and the courage to voice them. Thank you.
                                 ______
                                 

         Material Submitted by Frank Jannuzi as an Attachment 
                       to his Prepared Statement

           appendix: chronicle of rights violations in russia
[Drawn from Amnesty International's 2013 Annual Report, available on-
line here: http://www.amnesty.org/en/region/russia/report-2013-page]

    Vladimir Putin's return as President, following widely criticized 
elections, led to a surge in popular protest and demands for greater 
civil and political freedoms, particularly around his inauguration in 
May. The result was increased restrictions. Protests were frequently 
banned and disrupted. New laws were adopted, often without public 
consultation and in the face of widespread criticism, which introduced 
harsh administrative and criminal penalties that could be used to 
target legitimate protest and political and civil society activities, 
and to restrict foreign funding for civic activism.
    The Russian Federation responded belligerently to international 
criticism of its human rights record. A law on travel and other 
sanctions on officials allegedly responsible for the death of lawyer 
Sergei Magnitsky in custody in 2009 was passed by Congress and proposed 
in several other countries. The Russian authorities retaliated with 
reciprocal sanctions and by banning the adoption of Russian children by 
U.S. citizens and prohibiting Russian NGOs from receiving funding from 
the USA.
Freedom of assembly
    Peaceful protests across Russia, including gatherings of small 
groups of people who presented no public threat or inconvenience, were 
routinely dispersed by police, often with excessive force. The 
authorities regarded every such event, however peaceful and 
insignificant in number, as unlawful unless expressly sanctioned, 
although gatherings of pro-government or pro-Orthodox Church activists 
were often allowed to proceed uninterrupted even without authorization. 
There were frequent reports of police brutality toward peaceful 
protesters and journalists, but these were not effectively 
investigated.

          On 6 May 2012, the day before the inauguration of President 
        Putin, a column of protesters moving along a permitted route to 
        Bolotnaya Square in Moscow was halted by police, resulting in a 
        standoff and localized skirmishes. Subsequently, 19 protesters 
        faced criminal charges in connection with events characterized 
        by authorities as ``mass riots''; one pleaded guilty and was 
        sentenced to 4\1/2\ years' imprisonment; the remainders were 
        still awaiting trial at the end of the year. Several leading 
        political activists were named as witnesses in the case and had 
        their homes searched in operations that were widely broadcast 
        by state-controlled television channels. Over 6 and 7 May, 
        hundreds of peaceful individuals were arrested across Moscow, 
        some merely for wearing white ribbons as a symbol of protest 
        against electoral fraud.

    The law governing public events was further amended in June. It 
expanded the list of violations, introduced new restrictions and 
increased sanctions.
Freedom of expression
    The right to freedom of expression was increasingly restricted. 
Most media remained under effective state control, except for some 
outlets with limited circulation. Prime-time national television was 
regularly employed to smear government critics.
    Libel was recriminalized, 8 months after its decriminalization. 
Changes to the Criminal Code expanded the definitions of treason and 
espionage and made them vaguer by including sharing information with, 
or providing miscellaneous assistance to, foreign states and 
organizations whose activity is ``directed against security of the 
Russian Federation.''
    New legislation gave the government powers to blacklist and block 
Web sites publishing materials considered ``extremist'' or otherwise 
harmful to public health, morals, or safety. By the end of the year, 
this legislation was already being used to shut down sites publishing 
content protected by the right to freedom of expression.

          Maria Alekhina, Ekaterina Samutsevich and Nadezhda 
        Tolokonnikova, members of the punk group Pussy Riot, were 
        arrested in March after a brief and peaceful, albeit 
        provocative, political performance in the Cathedral of Christ 
        the Saviour in Moscow. They were convicted of ``hooliganism 
        motivated by religious hatred'' in August and were each 
        sentenced to 2 years in prison, although Ekaterina Samutsevich 
        received a conditional sentence on appeal and was released on 
        10 October. On 29 November a Moscow court declared video 
        footage of the group's church performance ``extremist,'' 
        rendering its publication on the Internet unlawful.
Discrimination
    Discrimination on grounds such as race, ethnicity, gender, 
religion, or political affiliation remained widespread. Discriminatory 
legislation targeting LGBTI individuals was introduced in several 
regions and proposed at the federal level. A law banning ``propaganda 
of sodomy, lesbianism, bisexualism, and transgenderness among minors'' 
came into force in St Petersburg in April. Similar laws were also 
introduced in Bashkiria, Chukotka, Krasnodar, Magadan, Novosibirsk, and 
Samara regions, and tabled before the State Duma. A number of public 
LGBTI events were forbidden and participants dispersed by police.
    Across Russia, LGBTI individuals and members of various minority 
groups continued to face attacks. Such attacks were not effectively 
investigated by the authorities, and the perpetrators often remain 
unidentified.

          On 4 August, four men forcibly entered an LGBTI club in 
        Tyumen and physically and verbally assaulted several customers. 
        Police detained the attackers. When the victims came to the 
        police station to file complaints, they were left in the same 
        room with the perpetrators, who continued to threaten them and 
        were later released without charge.
Human rights defenders
    Reports of harassment of human rights defenders continued. In the 
North Caucasus and elsewhere, activists, journalists and lawyers 
representing victims of human rights violations continued to face 
physical threats, including from law enforcement officials.
    Investigations into many past attacks, including the killing of 
Natalia Estemirova, made no ostensible progress.
    New legislation introduced further administrative hurdles and a 
legal obligation for NGOs to register as ``organizations performing the 
functions of foreign agents'' (language evocative of espionage) if they 
received foreign funding and engaged in broadly defined ``political 
activities.'' Failure to comply with these provisions might lead to 
heavy fines, and imprisonment for NGO leaders.
    Public officials routinely sought to blacken the reputation of 
individual human rights defenders and specific NGOs, as well as the 
work of human rights NGOs in general.

          In October, a senior Federal Security Service (FSB) official 
        reportedly stated that the FSB had secured the closure of 20 
        NGOs in Ingushetia for their links with foreign intelligence 
        services. He provided no information either on any specific 
        case involving charges of espionage against an NGO in 
        Ingushetia, or on which NGOs had supposedly been closed for 
        this reason. However, he singled out the well-known Ingushetian 
        human rights NGO, Mashr, as a ``foreign agent'' still in 
        operation.
          On 20 January, lawyer Omar Saidmagomedov and his cousin were 
        shot dead in Makhachkala, Dagestan, by security officials. The 
        authorities reported the incident as a killing of two armed 
        group members during a shoot-out. Omar Saidmagomedov's 
        colleagues dismissed this report and demanded an investigation 
        into allegations that he had been extra judicially executed 
        because of his professional activities. The investigator 
        summoned the lawyer representing Omar Saidmagomedov's family 
        for questioning as a witness, apparently with the aim of 
        disqualifying him from acting as legal counsel in the case.
          Elena Milashina, a journalist from the independent newspaper 
        Novaya Gazeta, together with a friend, was assaulted by two men 
        in the street in Moscow on 4 April, and received serious 
        injuries. The investigator identified and charged two 
        individuals who initially signed confessions but retracted them 
        after their families hired independent lawyers. The 
        investigator ignored protests by Elena Milashina that the two 
        did not fit her friend's description of the men who assaulted 
        her and that the real perpetrators had not been identified.
          Igor Kalyapin, head of the NGO Committee Against Torture, was 
        threatened with criminal proceedings in connection with his 
        work on the case of Islam Umarpashaev, torture victim from 
        Chechnya. On 7 July, Igor Kalyapin was summoned by a criminal 
        investigator for questioning for allegedly disseminating 
        confidential information. In September, journalists who had 
        interviewed Igor Kalyapin and individuals who wrote letters to 
        show their support were summoned for questioning.
Torture and other ill-treatment
    Allegations of torture and other ill-treatment remained widely 
reported and effective investigations were rare. Law enforcement 
officials allegedly frequently circumvented the existing legal 
safeguards against torture through, among other things: the use of 
secret detention (particularly in the North Caucasus); the use of force 
supposedly to restrain violent detainees; investigators denying access 
to a lawyer of one's choice and favoring specific state-appointed 
lawyers who were known to ignore signs of torture.
    In March, one torture case in Kazan was widely reported in the 
media after a man died of internal injuries in hospital. He claimed 
that he had been raped with a bottle at the police station. Several 
police officers were arrested and charged with abuse of power, and two 
were later sentenced to 2\1/2\ years' imprisonment respectively. Many 
more allegations of torture by police in Kazan and elsewhere followed 
media reports of this case. In response to an NGO initiative, the Head 
of the Investigative Committee decreed to create special departments to 
investigate crimes committed by law enforcement officials. However, the 
initiative was undermined by the failure to provide these departments 
with adequate staff resources.

          On the night of 19 January, Issa Khashagulgov, held in a 
        pretrial detention center in Vladikavkaz, North Ossetia, was 
        allegedly taken to an undisclosed location and beaten and 
        threatened with further violence for refusing to cooperate with 
        the investigation against him. Reportedly, between 6 and 8 
        February he was transferred from the detention center to a 
        different location in North Ossetia for several hours each day 
        when his lawyers tried to see him, and subjected to ill-
        treatment. Issa Khashagulgov, suspected of armed group 
        membership, had earlier been repeatedly transferred between 
        different detention facilities while his family and lawyers 
        were denied information about his whereabouts, sometimes for 
        several days. His complaints were not investigated.
          Russian opposition activist Leonid Razvozzhayev went missing 
        on 19 October in Kiev, Ukraine, outside the office of a partner 
        organization to UNHCR, the U.N. refugee agency. On 22 October, 
        the Investigative Committee in Moscow stated that he had 
        voluntarily returned to the Russian Federation and handed 
        himself in to the authorities. Leonid Razvozzhayev disavowed 
        this statement via his lawyer, and alleged that he had been 
        abducted and smuggled into the country, held at a secret 
        location, ill-treated and forced to sign a statement 
        implicating him and other political activists in plotting mass 
        disturbances in Russia on foreign orders. The Russian 
        authorities dismissed his allegations and refused to 
        investigate them.
Justice system
    The need for judicial reform was widely acknowledged, including by 
senior officials. However, no effective steps were taken toward 
ensuring the independence of the judiciary. Reports of unfair trials 
were numerous and widespread. A range of court decisions, including 
those concerning extremism and economic and drug-related crimes, were 
affected by political considerations, and a growing number of 
convictions appeared politically motivated, including those of the 
Pussy Riot members. Allegations were frequently made of collusion 
between judges, prosecutors, investigators and other law enforcement 
officials resulting in unfair criminal convictions or disproportionate 
administrative penalties.
    Lawyers across the country complained of procedural violations 
undermining their clients' right to a fair trial. These included denial 
of access to clients, detention of individuals as criminal suspects 
without promptly informing their lawyers and families, appointment of 
state-paid lawyers as defense counsel who are known to raise no 
objections about procedural violations and the use of ill-treatment.

          Lawyer Rustam Matsev complained that on 31 May a senior 
        police official at a pre-trial detention center in Nalchik, 
        Kabardino-Balkaria, demanded that he should ``stop teaching his 
        defendant to lie'' and convince him to withdraw a complaint 
        about abduction and ill-treatment by police. The officer 
        allegedly told Rustam Matsev that lawyers ``get blocked'' in 
        the same way as members of armed groups during their 
        ``elimination'' in security operations. The authorities refused 
        to investigate the lawyer's allegations.
          On 27 October, dozens of protesters lined up 50m apart (a 
        form of picketing which requires no prior authorization) in 
        front of the central FSB headquarters in Moscow. Later, when 
        several known political activists tried to leave, surrounded by 
        reporters, they were detained by police. On 30 October and 4 
        December respectively, activists Alexey Navalny and Sergei 
        Udaltsov were fined nearly US$1,000 each for organizing and 
        participating in an unauthorized rally that violated public 
        order. The judge hearing Alexey Navalny's case reportedly 
        declined his defense lawyer's request to cross-examine the 
        police officers who had detained him, and refused to admit 
        video footage of the event as evidence.
North Caucasus
    The region remained highly volatile. Human rights violations in the 
context of security operations remained widespread.
    Armed groups continued to launch attacks against security forces, 
local officials and civilians. A double bomb attack on 3 May in 
Makhachkala, Dagestan, left 13 people dead (including 8 police 
officers), and over 80 emergency and rescue workers were injured. On 28 
August, an influential Dagestani Muslim cleric, Sheikh Said Afandi, and 
his five visitors were killed by a woman suicide bomber. Other attacks 
by armed groups took place across the North Caucasus.
    Some republics sought to develop nonrepressive responses to the 
threats posed by armed groups. Commissions for Adaptation were 
established in Dagestan and Ingushetia with the aim of encouraging the 
surrender and reintegration into society of former members of armed 
groups. The Dagestani authorities adopted a more tolerant attitude 
toward Salafi Muslims.
    However, security operations continued to be conducted on a regular 
basis throughout the region. In the course of these, numerous human 
rights violations by law enforcement officials were reported, including 
enforced disappearances, unlawful detentions, torture and other ill-
treatment, and extrajudicial executions.
    The authorities systematically failed to conduct effective, 
impartial, and prompt investigations into human rights violations by 
law enforcement officials, or to identify those responsible and bring 
them to justice. In some cases, criminal proceedings were initiated, 
but for the most part, the ensuing investigation either failed to 
establish the perpetrators or confirm involvement of officials in the 
relevant incidents, or concluded that there had been no violation by 
law enforcement officials. Only exceptional cases led to the 
prosecution of police officials for abuse of authority in connection 
with torture and other ill-treatment. Not a single case of enforced 
disappearance or alleged extrajudicial execution was resolved, and no 
perpetrators from any other law enforcement agency were brought to 
justice.

          Rustam Aushev, a 23-year-old resident of Ingushetia, was last 
        seen on 17 February at Mineralnye Vody railway station in the 
        neighboring Stavropol region. The next day, his relative spoke 
        to staff at the station. They reported seeing a young man being 
        detained by plain-clothes men and driven away in a Gazelle 
        minivan, which was also captured on CCTV. A security guard had 
        reportedly spoken to the minivan's driver asking it to be 
        parked in the designated area, and was shown an FSB official's 
        ID. Rustam Aushev's family reported these details to the 
        authorities and demanded an investigation, but his fate and 
        whereabouts were unknown at the end of the year.

    In Ingushetia, the first ever trial of two former police officials 
concluded in Karabulak. Some charges related to the secret detention 
and torture of Zelimkhan Chitigov although the officials faced other 
charges as well. The announcement of the verdict was postponed 
repeatedly for almost 3 months, and on 7 November the judge sentenced 
one defendant to 8 years' imprisonment, and fully acquitted the other, 
his former superior. Allegations of intimidation of victims and 
witnesses had persisted throughout the trial, during which both 
defendants remained at large. No other perpetrators were identified 
despite Zelimkhan Chitigov naming at least one other official by name 
and alleging that many others had been involved in the incessant bouts 
of torture during the 3 days he was kept in secret detention.
                                 ______
                                 
 additional resources: reports available from amnesty international's 
      international secretariat on russian human rights conditions

The Circle of Injustice: Secutiry Operations and Human Rights 
Violations in Ingushetia (2012)
[http://www.amnestyusa.org/sites/default/files/
3680_ingushetia_cover_contents 
_web.pdf]

    In recent years, the Russian authorities have tried to extend and 
diversify their approach to threats posed by armed groups. This 
approach in Russia usually comes coupled with scant regard for the rule 
of law, and results in Human Rights Abuses that hinder the entire 
region's stability. Citizens in Ingushetia are the victims of 
extrajudicial executions, secret and incommunicado detentions and 
torture. Authorities fail to investigate allegations of torture, or the 
investigations are inadequate especially of complaints and accusations 
against security forces. Amnesty also documents the purposeful 
meandering of the legislative process to delay the development of 
justice.
    Security forces in the North Caucasus partake in covert operations 
with masked and camouflaged men that bare no distinguishable markings. 
This tactic helps them to set the groundwork for the elaborate process 
of misleading investigators, refusing accountability, denying secret 
detentions, and deferring justice. No one has ever been held 
accountable by the Russian Government for enforced disappearances or 
extrajudicial executions in the North Caucasus.

Confronting the Circle of Injustice: Threats and Pressure Faced by 
Lawyers in the N. Caucuses (2013)
[http://www.amnesty.org/en/library/asset/EUR46/003/2013/en/6af890a1-
d79f-487d-bd39-2af4020a5835/eur460032013en.pdf]

    Human rights violations such as enforced disappearances, unlawful 
killings, torture and other ill-treatment committed by members of law 
enforcement agencies are regularly reported from the North Caucasus and 
almost never effectively investigated. These violations, and the 
Russian authorities' systematic failure to investigate them 
effectively, produces a circle of injustice and leads to further 
violations of fundamental human rights. This in many cases includes the 
inability for defendants to access or choose their own lawyer. 
Furthermore the lawyers that are chosen to represent the defendants are 
coming under increasing pressure and threats from the criminal justice 
system.
    This intimidation fundamentally undermines the right to a fair 
trial, and in turn makes the lawyers themselves victims of human rights 
abuse. The atmosphere of intimidation and harassment creates a 
festering environment for the continued ``success'' of a repressive 
justice system. The Lawyers who choose to defend the rights of 
individuals accused of military or political crimes, routinely come 
across procedural and institutional obstructions which limit their 
ability to see and communicate with their clients. They are threatened 
by law enforcement officials and often receive no assistance from their 
respective bar associations.
Illustrative Cases
  <bullet> Rustam Matsev: As a defense lawyer, Matsev has worked on a 
        number of cases of individuals accused of membership in armed 
        groups, many of whom claimed to have been tortured and 
        mistreated by law enforcement officials. Prior to a cross-
        examination of one of his clients, the officer who would 
        question his client asked Matsev why he had ``taught his client 
        to lie.'' He was then warned that ``During security operations, 
        while eliminating members of armed groups, we block lawyers as 
        well. We will definitely meet again. When you walk, always look 
        back because we are watching you and know everything that you 
        do.'' Matsev believes this was a direct threat against him, but 
        when he filed a complaint with the authorities, he was informed 
        that the officer was joking, and Matsev must have misunderstood 
        him.
  <bullet> Omar Saidmagomedov: Saidmagomedov acted as defense counsel 
        for several individuals accused of being members of armed 
        groups, and alleged the use of torture and fabrication of 
        evidence for use in criminal proceedings against his clients. 
        On January 20, 2012, Saidmagomedov and his cousin were murdered 
        by security officials in front of his cousin's house. A news 
        broadcast the same night reported that the incident was a 
        security operation in which two armed criminals were fleeing 
        law enforcement officials who were shot as they tried to 
        escape. Saidmagomedov's family and colleagues have been 
        prevented from pursuing the case.
  <bullet> Sapiyat Magomedova: A criminal lawyer known for her work on 
        cases involving human rights violations allegedly committed by 
        law enforcement agencies in Dagestan, Magomedova was beaten by 
        police officers while trying to gain access to her clients. 
        When she filed a complaint about the beating, the police opened 
        a criminal investigation to prove that she, in fact, had beaten 
        the police officers. Magomedova was repeatedly pressured to 
        drop the charges. In 2011, both Magomedova's case against the 
        police officers and the officers' case against her were closed. 
        Magomedova plans to appeal the decision to close the criminal 
        investigation of the assault by police officers.

Freedom Under Threat: Clampdown on Freedoms of Expression, Assembly and 
Association in Russia (2013)
[http://www.amnestyusa.org/sites/default/files/eur460112013en.pdf]

    Vladimir Putin was inaugurated as President of the Russian 
Federation in May 2012. His election in March fueled protests all over 
Russia. From December 2011 to December 2012 at least 5,100 protestors 
have been arrested in more than 220 protest gatherings.
    His administration's response to the protest movement has been 
almost entirely repressive. Through administrative and legal changes he 
has severely curtailed the rights to freedom of expression, 
association, and assembly. The rights of political opponents, human 
rights organizations and activists, and all Russian citizens wishing to 
raise their voice in protest have been curtailed. These rights are 
explicitly guaranteed to the people by the Russian Constitution.

[AIUSA's interactive timeline on the above report is here: http://
www.amnestyusa. 
org/russia/]
 additional resources: amnesty international's prisoners of conscience 
             (pocs) and other individuals at risk in russia
Mikhail Khodrokovskii and Platon Lebedev (Prisoners of Conscience)
    AI believes that there is a significant political context to the 
arrest and prosecution of Mikhail Khodrokovskii and Platon Lebedev. 
They were arrested in July 2003 and charged with seven counts of fraud, 
tax evasion, and embezzlement and were accused of defrauding the state 
of over $1 billion. Both men denied the charges against them and 
maintained that the case was politically motivated, as did many 
domestic human rights groups. After a trial lasting almost 1 year in 
May 2005 a court found them guilty and sentenced them to 9 years in 
prison. On appeal, Khodorkovskii's sentence was reduced to 8 years.
    AI is concerned about a number of fair trial violations, both 
publicly and in letters to the Russian Government.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mikhail Khodorkovskii: Khodorkovskii was arrested in 2003 and has 
faced two trials: Tax evasion and fraud and embezzlement and money 
laundering. He was an outspoken activist against government corruption 
and was once considered a potential leader for the anti-Putin 
opposition party. The international community has spoken out in support 
of Khodorkovskii and many believe that his arrest was politically 
motivated. AI expresses concern about the timing of the charges against 
him, the reported harassment of his lawyers, and cited procedural 
violations that could have exonerated him. He is married and has four 
children.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Platon Lebedev: AI declared Russian businessman Platon Lebedev a 
prisoner of conscience after his convictions on money laundering were 
upheld by a Moscow court in 2011. Lebedev was a close associate of 
Khodorkovskii and the fourth-largest shareholder in Yukos oil. AI 
believes that his arrest was politically motivated. He has spent 9 
years in jail on dubious charges. He is married and has four children.
            lawyers in the n. caucuses (individuals at risk)
    Omar Saidmagomedov--Saidmagomedov was a defense lawyer for several 
individuals accused of being members of armed groups. Many of his 
clients stated they had been mistreated by authorities and were the 
victims of torture. On January 20, 2012, Saidmagomedov and his cousin 
were murdered by security officials in front of his cousin's house. 
That same night, the authorities claimed that he was killed in a 
security operation in which ``two armed criminals shot at police 
officers during their escape.'' Saidmagomedov's family and colleagues 
have been blocked by the judicial process when attempting to pursue his 
case.
    Rustam Matsev--As a defense lawyer from Nalchik, Kabardino-
Balkaria, Matsev has worked on a number of cases for individuals 
accused of membership in armed groups, many of whom claimed to have 
been tortured. For this representation he has received personal and 
direct threats against himself and his clients. He was threatened prior 
to a cross-examination of one of his clients, when an officer who would 
question his client accused Matsev of teaching his client to lie. He 
was then told, ``During security operations, while eliminating members 
of armed groups we block lawyers as well. We will definitely meet 
again. When you walk, always look back because we are watching you and 
know everything that you do.'' The officer also kept insisting that his 
client should confess to the crime he had been charged with. Matsev 
perceived the officer's words as a direct veiled threat against him and 
a warning that a criminal case against him may be fabricated. He later 
filed a complaint with the authorities but it was dismissed. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 

           Two Articles Submitted for the Record by Leon Aron

                [From the Washington Post, May 30, 2012]

             Putin's War on Russian Civil Society Continues

          (By Leon Aron, Published: Washington Post Opinions)
    Almost a year into the Kremlin's war on civil society, the legal 
veneer looked familiar: A May 15 letter from prosecutors informed the 
Levada Center, Russia's most authoritative independent polling firm, 
that in publicizing the results of its polls it ``aimed at shaping 
public opinion on government policy'' and was, therefore, a ``political 
organization.'' And, as a political organization receiving foreign 
grants (from the likes of the Ford and MacArthur foundations), it had 
to register as a ``foreign agent.''
    Every assault on civil society is a tragedy for Russia. 
Nongovernmental organizations are, first and foremost, schools of 
democracy, teaching personal responsibility, self-organization, 
peaceful dissent and compromise. Left in their rubble are stagnation, 
hatred and radicalism. Yet even among the myriad instances of this 
state-directed civil catastrophe in the making, the (likely fatal) 
assault on the Levada Center stands out.
    The last line of Pushkin's ``Boris Godunov''--still a primer in 
Russian political tradition--is ``Narod bezmolstvuet'': ``The people 
are silent.'' In a history strewn with tragedies and bad luck, it is 
hard to pinpoint the most damaging malady, but this silence is among 
the worst of Russia's ills. Of course, the people were never silent: 
They thought and they talked to one another, even if only in whispers. 
But all venues for influencing their country's course were severed--
short of the periodic ``bunt,'' or ``Russian revolt, senseless and 
merciless'' (Pushkin again). ``We did not know the country in which we 
lived,'' Mikhail Gorbachev wrote in 1988.
    So it was only natural that glasnost and public opinion polling in 
the Soviet Union were born in the same year: 1987. It was among the 
first and most exhilarating miracles of glasnost--a miracle of self-
discovery: People learned what their fellow citizens thought! It was 
also among the surest signs that democratization was real. At long 
last, the country's leaders wanted to know people's views.
    Leading the way was the All-Union Center for the Study of Public 
Opinion. Known by its Russian acronym, VTsIOM, the center was soon 
headed by the dean of Soviet sociologists, Yuri Alexandrovich Levada, 
who made it into the country's most respected polling firm.
    But in September 2003 the Kremlin decided to ``reclaim'' VTsIOM, 
which was still nominally state-owned, and installed a new board of 
directors. The tipping point reportedly was tepid support for the four-
year-old war in Chechnya. (The center publicized that 58 percent of 
Russians were against and only 27 percent for continuing it.) Levada 
quit--and the center's entire staff, more than 100 people, left with 
him. There was, however, still enough space unoccupied by the state for 
a new and independent polling firm, bearing Levada's name, to garner 
enough customers and supporters at home and abroad to sustain itself. 
Today, however, the government appears to have resolved to finish off 
the center.
    For a regime that seems determined to deny the country desperately 
needed institutional reforms because they involve democratization--
ensuring its short-term survival at the cost of the country's long-term 
stagnation--the letter was a logical move. All manner of findings 
routinely reported by the Levada Center in the past few months have 
flat-out contradicted the official propaganda narrative.
    One in five Russians, the center found, were considering 
emigration, with the rate skyrocketing to 44 percent among 18- to 24-
year-olds and 36 percent among those 25 to 39. A majority of Russians 
(57 percent) said that the Magnitsky Act--U.S. legislation that bars 
Russian officials involved in corruption and human rights abuses from 
entering the United States and from keeping money in U.S. banks--was 
aimed at those who ``misuse power and violate human rights,'' or at the 
``meretricious and corrupt Russian bureaucracy,'' or at the country's 
leadership that covers up the misdeeds of ``swindlers and embezzlers.'' 
By contrast, the government's assertion that the act was aimed 
``against Russia'' was supported by only 23 percent. The final straw 
for the Kremlin may have been polling data on Putin's approval rating: 
It was at the lowest level in 12 years, Levada reported in January. 
Less than two weeks ago, the center found that if the presidential 
election were held this month, only 29 percent were ready to vote for 
Putin.
    ``We will continue our activity, although we are in a very 
difficult situation,'' Levada Center director Lev Gud kov, a man of a 
quick smile and impeccably objective analysis, recently told an 
interviewer. But it was ``out of the question'' for the center to 
register as a ``foreign agent.'' ``A totally new period has begun in 
Russia,'' he added, ``the suppression of all independent organizations 
by the Kremlin.''
    Six and a half years ago in this newspaper, I said farewell to Yuri 
Levada, a great political sociologist and a dear friend. This news from 
Moscow is like burying him again.
                                 ______
                                 
             [From the Wall Street Journal, June 10, 2013]

                      The Widening Putin Clampdown

  In today's Russia, even a moderate critic like Sergei Guriev is in 
                           danger of arrest.
                             (By Leon Aron)
    In late May, Sergei Guriev, a prominent Russian economist and dean 
of Moscow's prestigious New Economic School, fled Russia fearing 
imminent arrest. His crime? Being critical of the Putin regime.
    His concerns were well founded. Since February, Mr. Guriev had been 
interrogated more than once by Russia's Investigative Committee, the 
most feared of the Kremlin's tools of repression, and pressured to 
surrender personal and professional documents. He and his wife were 
under surveillance, his office searched, and five years of emails 
seized. He was told that his home would soon be searched.
    Mr. Guriev was no opposition activist, much less an opposition 
leader--the typical targets of Kremlin harassment. To the contrary, 
while his incisive analytical articles (a must-read for all Russia 
watchers) were often critical of government policies--and while he 
never shied away from advocating the rule of law or condemning 
corruption--he was in many ways a consummate insider. A longtime 
adviser to the Kremlin, Mr. Guriev sat on the Presidential Commission 
on Open Government as well as the board of several state-run companies. 
Even after fleeing the country, he was re-elected to the board of 
Sberbank, SBRCY -2.90% Russia's state-controlled banking giant.
    It is precisely Mr. Guriev's within-the-system position that makes 
the regime's attack on him so portentous and troubling. In forcing him 
into exile, the Kremlin has signaled a unilateral renegotiation of the 
long-standing social compact with liberal public-opinion leaders.
    Not long ago, pro-reform members of the establishment could say and 
write what they pleased so long as they did not actively support the 
opposition. Now the message is: You must stop public criticism of the 
government--or risk harassment and even jail. If you don't like the 
deal, leave while the going is still good. Those who choose to stay, 
according to the popular opposition blogger Yulia Latynina, must 
``believe that the greatness of Russia lies in Vladimir Putin,'' and 
that criticism of him is part of a ``world conspiracy'' or ``fifth 
column'' machinations inside the Russian government.
    Thus, a year into the authoritarian consolidation that followed Mr. 
Putin's re-election as president in March 2012, his government has 
entered a new phase of repression. The Guriev exile marks the beginning 
of the regime's transition from the softer authoritarianism of who is 
not against us is with us to a much harder and malignant version of who 
is not with us is against us.
    This is on display in the continuing trial of popular opposition 
leader Alexei Navalny, a lawyer and anticorruption crusader who had the 
temerity to declare that he would challenge Mr. Putin in the 2018 
election. Facing the unlikely charge that he stole 10,000 cubic meters 
of timber from a state-owned company while he was an unpaid adviser to 
a regional governor, Mr. Navalny faces a maximum sentence of 10 years.
    Another opposition leader, Sergei Udaltsov of the Left Front 
movement, is awaiting trial under house arrest for his role in protests 
against Mr. Putin after last year's election. Mr. Udalstov is charged 
with the ``preparation of riots and mass disorder,'' arranged with the 
help of the ``government of Georgia.'' There is little doubt now that, 
like Mr. Navalny, he is likely to be sentenced ``to the full spool of 
thread,'' as Russians say of a maximum sentence.
    The Guriev ordeal also leaves little doubt about the fate of 
Russia's most famous prisoner, Mikhail Khodorkovsky, who more than a 
decade ago refused to heed Mr. Putin's warning to ``stay out of 
politics.'' After two trials, two convictions and 10 years in jail, the 
former ``oligarch'' and principal owner of the now bankrupt oil giant 
Yukos is up for release next year. It would not be a surprise if the 
government found a reason to keep him in jail.
    Mr. Guriev's key sin appears to have been his participation, with 
eight other law and economics experts, in a commission convoked in 
2011, at then-President Dmitry Medvedev's request, to address a 
widespread revulsion over the second trial and conviction of Mr. 
Khodorkovsky and his business partner Platon Lebedev the previous year. 
Predictably, the independent commission found the state's case bogus.
    In the regime's new mode of repression, the survival of Russia's 
few remaining independent media outlets looks precarious. These include 
Ekho Moskvy radio station, the Dozhd television and online station, and 
the Vedomosti daily and Novaya Gazeta twice-weekly newspapers. The main 
financier of the latter newspaper, former billionaire Alexander 
Lebedev, is on trial for ``malicious hooliganism'' for getting into a 
fist fight on live television. ``The full spool of thread'' for him 
would be five years. LiveJournal.com, where most opposition leaders 
blog, has in recent years been the target of several mysterious cyber 
attacks, causing it to shut down for short periods.
    ``It seems that Russia is entering a new period--the establishment 
of a dictatorship,'' a leading Russian political sociologist wrote to 
me in recent days. Earlier this spring, I would have asked if I could 
cite him by name and almost certainly would have received his 
permission. Now that even Sergei Guriev has fled the country, such a 
request was no longer safe to make without putting my correspondent in 
danger.

                                  [all]

</pre></body></html>
